<html>
<title> - CLIMATE SCIENCE IN THE POLITICAL ARENA</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                 CLIMATE SCIENCE IN THE POLITICAL ARENA

=======================================================================



                                HEARING

                               before the
                          SELECT COMMITTEE ON
                          ENERGY INDEPENDENCE
                           AND GLOBAL WARMING
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 20, 2010

                               __________

                           Serial No. 111-18


             Printed for the use of the Select Committee on

                Energy Independence and Global Warming
                        globalwarming.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
58-145                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001

                SELECT COMMITTEE ON ENERGY INDEPENDENCE
                           AND GLOBAL WARMING

               EDWARD J. MARKEY, Massachusetts, Chairman
EARL BLUMENAUER, Oregon              F. JAMES SENSENBRENNER, Jr, 
JAY INSLEE, Washington                   Wisconsin
JOHN B. LARSON, Connecticut            Ranking Member
STEPHANIE HERSETH SANDLIN,           JOHN B. SHADEGG, Arizona
  South Dakota                       CANDICE MILLER, Michigan
EMANUEL CLEAVER, Missouri            JOHN SULLIVAN, Oklahoma
JOHN J. HALL, New York               MARSHA BLACKBURN, Tennessee
JOHN SALAZAR, Colorado               SHELLEY CAPITO, West Virginia
JACKIE SPEIER, California
                                 ------                                

                           Professional Staff

                      Michael Goo, Staff Director
                       Sarah Butler, Chief Clerk
                Barton Forsyth, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............     1
    Prepared statement...........................................     3
Hon. F. James Sensenbrenner, Jr., a Representative in Congress 
  from the State of Wisconsin, opening statement.................     5
Hon. Emanuel Cleaver II, a Representative in Congress from the 
  State of Missouri, opening statement...........................     6
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     7
Hon. John Hall, a Representative in Congress from the State of 
  New York, opening statement....................................     7

                               Witnesses

Dr. Ralph Cicerone, President, National Academy of Sciences, 
  Chair, National Research Council...............................     9
Dr. Mario Molina, Professor, Department of Chemistry and 
  Biochemistry, University of California at San Diego, Nobel 
  Laureate in Chemistry..........................................    18
    Answers to Submitted Questions...............................    21
Dr. Ben Santer, Research Scientist, Lawrence Livermore National 
  Laboratory.....................................................    25
    Prepared statement...........................................    28
Dr. Stephen Schneider, Professor, Stanford University............    60
    Prepared statement...........................................    63
Dr. William Happer, Cyrus Fogg Brackett Professor, Department of 
  Physics, Princeton University..................................    76
    Prepared statement...........................................    79


                 CLIMATE SCIENCE IN THE POLITICAL ARENA

                              ----------                              


                         THURSDAY, MAY 20, 2010

                  House of Representatives,
            Select Committee on Energy Independence
                                        and Global Warming,
                                                    Washington, DC.
    The committee met, pursuant to call, at 9:10 a.m., in Room 
1334, Longworth, Hon. Edward J. Markey [chairman of the 
committee] presiding.
    Present: Representatives Markey, Blumenauer, Inslee, 
Cleaver, Hall, Sensenbrenner, and Blackburn.
    Staff Present: Ana Unruh Cohen, Jonah Steinbuck, Bart 
Forsyth and Rajesh Bharwani.
    The Chairman. Good morning. Welcome to the Select Committee 
on Energy Independence and Global Warming. This hearing is 
called to order.
    The disaster that is the BP oil spill continues to unfold 
in the Gulf of Mexico. Congress is focused on key questions: 
What happened and who is responsible? How much oil has spilled 
and what is the impact? How do we make decisions in the face of 
uncertainty?
    We face similar questions when confronted with the looming 
disaster of climate change caused by carbon pollution. In both 
instances, lawmakers need to be informed by the best available 
science as they make decisions and seek clean energy solutions.
    Today, we are joined by some of the world's foremost 
climate scientists, including the President of the National 
Academy of Sciences and a Nobel Prize winning atmospheric 
chemist. These scientists have been instrumental in informing 
the clean energy and climate change policy debate. Their work 
has helped identify the fingerprint of human activity on global 
warming amongst the background of natural variability. They 
have provided a risk framework to guide policymakers in the 
face of evolving science.
    Just yesterday, the National Academy of Sciences issued 
three major reports about the science, the solutions, and the 
ways to adapt to climate change. These reports reinforce the 
overwhelming foundation of knowledge we have about the danger 
of carbon pollution. This is a foundation still unshaken by a 
manufactured scandal over stolen e-mails.
    This knowledge was gained in an America that supports 
creative, inquisitive scientists. American scientists enjoy the 
freedom to follow the science where it leads and to work 
collaboratively and sometimes combatively with their 
colleagues. Preserving this freedom to explore new ideas and 
technologies is critical to understanding our world and finding 
solutions to our clean energy challenges.
    Given the relevancy of their work to national priorities, 
our best scientists are increasingly drawn into the political 
arena. Disagreements over policies have led some to target both 
the science and the scientists themselves. The latest and most 
overt incident came earlier this month when Virginia's Attorney 
General Ken Cuccinelli demanded the materials be turned over by 
the University of Virginia relating to five grants that 
involved a former University of Virginia professor, Dr. Michael 
Mann. Although Dr. Mann's work has been examined by his peers 
and found to be sound, the Attorney General is using this 
controversy over his research as an excuse for a fishing 
expedition.
    The request to UVA asks for materials related to 39 people. 
Some of these are critics of Dr. Mann. Some of them are far 
outside the field of expertise of the grants in question. 
Instead, their list reads like a Google search of climate, e-
mails, and IPCC.
    The Attorney General doesn't even ask for the records 
associated with all of Dr. Mann's co-investigators on the 
grants. If the investigation were truly about fraud, as the 
Attorney General claims, then you would expect him to seek all 
documents related to all of the scientists involved in the 
grants.
    This week, over 800 Virginia scientists sent a letter to 
Cuccinelli suggesting his demand is transparently political and 
designed to intimidate. This attempt at intimidation is not 
new, but it is getting worse. Two weeks ago, 255 members of the 
National Academy of Sciences, including 11 Nobel Prize winners, 
published a letter in Science Magazine decrying the treatment 
of climate scientists and warning of the chilling effects on 
the greater scientific community.
    The majority of climate research in the country is 
supported by Federal funding. Recipients of these funds have a 
duty to work in an ethical, transparent way and to communicate 
their findings in support of societal needs. Our witnesses 
today are dedicated to that premise, despite attempts to 
portray them to the contrary.
    It seems fitting to close with a quote from the recent 
scientists' letter: ``We can ignore the science and hide our 
heads in the sand and hope we are lucky, or we can act in the 
public interest to reduce the threat of global climate change 
quickly and substantively.''
    I would now like to recognize the ranking member of the 
Select Committee, the gentleman from Wisconsin, Mr. 
Sensenbrenner.
    [The prepared statement of Mr. Markey follows:]

    [GRAPHIC] [TIFF OMITTED] 58145A.001
    
    [GRAPHIC] [TIFF OMITTED] 58145A.002
    
    Mr. Sensenbrenner. I thank the chair.
    Unfortunately, I have to begin today by addressing conduct 
from the committee's last hearing.
    Two weeks ago, the minority's witness, Christopher 
Monckton, argued that there had been three distinct periods of 
warming in the past 150 years and that the rates of warming in 
each of these periods were parallel. He demonstrated that both 
the EPA and the IPCC were wrong to claim that the rate of 
warming in the most recent period was higher than the two 
previous periods of warming.
    Finally, he questioned whether CO<INF>2</INF> is the most 
likely cause of warming if previous temperature rises were 
identical when atmospheric concentrations were much lower than 
they are today.
    Neither the majority nor its witnesses responded to any of 
these arguments. Instead, they attacked Lord Monckton for not 
presenting scientific information, even though he clearly did. 
They ridiculed his name, and they wrongly accused him of 
falsifying his credentials and then refused to allow him to 
respond.
    I encourage everybody to read the transcript or watch the 
video on the committee's Web site. It was bullying, and it was 
embarrassing. And, as Lord Monckton said in response, a certain 
amount of politics has crept in on one side of this debate; 
and, therefore, inconvenient science has been dismissed as not 
being science at all.
    I want to be clear that not all members of the majority 
stooped to these levels, and I thank the chairman in particular 
for his professionalism. But the politicization of science from 
some members of the committee is a legitimate threat to 
scientific understanding.
    Sadly, last week's hearing echoed the shameful culture 
exposed by the Climategate e-mails. Climategate revealed a 
scientific culture that is more interested in defending its 
findings than in finding truth. It showed some of the most 
prominent scientists in the world actively working to sabotage 
legitimate scientists who dared to challenge their work.
    The majority repeatedly tried to dismiss the Climategate e-
mails, but no number of politically motivated studies will 
change what the e-mails actually say, and I want to read a few 
quotes:
    ``I tried to balance the needs of the science and the IPCC, 
which were not always the same.''
    ``There is pressure to present a nice tidy story as regards 
apparent unprecedented warming in the thousand years or more in 
the proxy data, but, in reality, the situation is not quite so 
simple.''
    ``If you think that Saiers is in the greenhouse skeptics 
camp, then, if we can find documentary evidence of this, we 
could go through official AGU channels to get him ousted.''
    ``I got a paper to review written by a Korean guy and 
someone from Berkeley that claims that the method of 
reconstruction that we use in dendroid climatology is wrong, 
biased, lousy, horrible, et cetera. If published as is, this 
paper could really do some damage. It won't be easy to dismiss 
out of hand, as the math appears to be correct, theoretically. 
I am really sorry, but I have to nag about that review. 
Confidentially, I now need a hard and, if required, extensive 
case for rejecting.''
    ``I can't see either of these papers being in the next IPCC 
report. Kevin and I will keep them out somehow, even if we have 
to define what the peer review literature is.''
    There are literally thousands of these. These e-mails 
expose an intolerant scientific culture, and they raise 
legitimate questions about the strength of the so-called 
``scientific consensus.''
    The minority witness today is Dr. William Happer. He is the 
Cyrus Fogg Brackett Professor of Physics at Princeton 
University and a member of the American Physical Society and 
National Academy of Sciences. He has spent his professional 
career studying the interactions of visible and infrared 
radiation with gases which are the physical phenomena behind 
the greenhouse effect. Dr. Happer has long argued that 
increased accumulations of CO<INF>2</INF> will not lead to the 
temperature increases that the IPCC predicts and that the 
results of climate change will not be as catastrophic as 
claimed.
    Dr. Happer is very familiar with the politicization of 
science. Al Gore fired him from the Department of Energy 
because of his beliefs.
    In a criticism of then Vice President Gore, Ted Koppel--no 
conservative--said, ``The measure of good science is neither 
the politics of the scientists nor the people with whom the 
scientist associates. It is the immersion of hypotheses into 
the acid of truth. That is the hard way to do it, but it's the 
only way that works.''
    Finding errors in data and critiquing scientific work is 
the legitimate path to truth. Ridicule and attempts to besmirch 
reputations have no place in this debate.
    I yield back.
    The Chairman. The gentleman's time has expired.
    The chair recognizes the gentleman from Missouri, Mr. 
Cleaver, for an opening statement.
    Mr. Cleaver. Thank you, Mr. Chairman, to you and Ranking 
Member Sensenbrenner.
    I would like to welcome our witnesses today before this 
hearing. I would like to express appreciation to all of you for 
your efforts in the scientific arena.
    Science is the basis of our knowledge of the wonderful 
world we inhabit, and without people like you we would be 
sitting in a greater degree of darkness. Personally, I believe 
that we need to act now to reduce greenhouse gas emissions and 
to take appropriate adaptation strategies for global effects 
that are on the way and are already being felt around the 
world. We have, I believe, a moral imperative to preserve this 
planet for future generations and for our progeny.
    My concern is that we now exist in a Nation that has simply 
become mean spirited, and I think we look for ways in which to 
be mean. I think some of us get up in the morning and spend 
time revving up our anger, and then we express it in a variety 
of ways, some of them not very nice. And I think maybe you all 
are victims of what is going on. I don't celebrate disrespect 
for anyone, but certainly I do think that what has happened to 
you is happening in a variety of ways, including the United 
States Congress. And so I think we have got to take whatever 
steps we can to do the science and put in place measures that 
will aid in the healing of this planet.
    Mr. Chairman, I yield back the balance of my time.
    The Chairman. The gentleman's time has expired.
    The chair recognizes the gentlelady from Tennessee, Mrs. 
Blackburn.
    Mrs. Blackburn. Thank you, Mr. Chairman, and thank you for 
holding the hearing. To our witnesses, we welcome you. We are 
all pleased that you are here.
    This committee is examining the role of climate science in 
political decision making. That is the topic for our hearing 
today. I think that perhaps we should have a hearing on the 
role of political decision making in climate science, and our 
ranking member has spoken eloquently to that effect.
    All of the members on this panel agree that we need the 
best science available to make informed decisions. 
Unfortunately, recent investigations have shown how academic 
researchers misused Federal funds through distorting data to 
manipulate lawmakers into adopting certain positions on climate 
change.
    Mr. Chairman, most of these problems are tied with the 
funding that agencies and academics receive for their research 
from climate science. Instead of producing objective analysis 
with scientific integrity, they seek to produce results that 
will lead to more funding in the future. That is really 
unfortunate and I think unfair for the American taxpayer.
    Instead of exercising oversight over this analysis, 
bureaucracies like the EPA occupy themselves with sponsoring 
YouTube video contests and throwing away tens of thousands of 
taxpayer dollars in prize money. And now the receivers of 
Federal funding can breathe a little easier as the House 
majority has decided to not produce a budget resolution for 
this year. Instead of examining funding for climate science 
research objectively, the majority has decided to bypass the 
resolution process and go straight into deeming--deeming--
spending levels. This is a first in 36 years.
    They do not want to have to reveal to the American taxpayer 
the huge $1.5 trillion deficit for this year and for the 
upcoming 4 years. They would rather sweep it all under the rug 
and hope that the American taxpayers do not notice. But I know 
my constituents are aware of the tremendous financial problems 
the U.S. is in, and they want every program and every research 
grant to be scrutinized so that their money is not wasted.
    On behalf of the American taxpayers, I ask my colleagues to 
put forth a budget resolution, and I yield the balance of my 
time.
    The Chairman. The gentlelady's time has expired.
    The chair recognizes the gentleman from New York, Mr. Hall.
    Mr. Hall. Thank you, Mr. Chairman and Mr. Ranking Member.
    I am very glad you are holding this important hearing 
today, and I want to apologize at the outset that I will have 
to leave shortly because I am chairing a hearing of the 
Veterans' Affairs Committee on the VA's efforts to deal with 
military sexual trauma, and that will be starting shortly. But 
thanks to our witnesses and other members of the scientific 
community who first brought to our attention the phenomenon of 
global climate change.
    Regardless of where you stand on the science and what you 
believe is the truth, it happens to be that my colleague Ms. 
Blackburn's constituents and mine and others around the world 
are suffering already from the effects of climate change, in my 
opinion. Computer models that show increased storm frequency 
and storm strength are being borne out.
    The massive flooding in Tennessee, the massive rain event 
and flooding in Tennessee, in which many of my friends have 
lost everything--my mother-in-law's condo that she used to live 
in was up to the eaves in water.
    The week before that, the Mississippi tornado that was a 
mile wide and killed many people in that State.
    The week before that, the massive rain event and flooding 
in Stonington, Connecticut, and Warwick, Rhode Island. There 
were parts of New England that had six feet of water in the 
malls, in the Warwick Mall, and many businesses in downtown 
Stonington flooded out.
    The week before that, Paterson, New Jersey, and my farmers 
in Orange County, New York, experiencing their fourth 50-year 
flood in the last 6 years.
    The island of Madeira off the coast of Spain, where a rain 
event caused massive mudslides that washed people and homes and 
cars out to sea. The freak March hurricane Xynthia, months 
before the beginning of hurricane season, that hit the coast of 
France and killed 40 people, all seem to me to be evidence that 
the weather patterns are changing, regardless of what e-mails 
are going back and forth.
    And, lastly, I would just say that the solutions, even if 
climate change were not true, the solutions that we need to 
look for are the ones that will provide us with a positive 
balance of trade, new jobs in this country, and independence 
and recovering our sovereignty from those countries that we now 
depend on for oil or to borrow the money to pay for that oil.
    With that, I thank you, Mr. Chairman, and I yield back.
    The Chairman. I thank the gentleman very much.
    That completes opening statements from members. We will now 
turn on our witnesses.

  STATEMENTS OF RALPH J. CICERONE, PRESIDENT OF THE NATIONAL 
 ACADEMY OF SCIENCES, CHAIR OF THE NATIONAL RESEARCH COUNCIL, 
NATIONAL ACADEMY OF SCIENCES, 500 FIFTH STREET, NW, WASHINGTON, 
 D.C. 20001; MARIO MOLINA, PROFESSOR, DEPARTMENT OF CHEMISTRY 
 AND BIOCHEMISTRY, UNIVERSITY OF CALIFORNIA AT SAN DIEGO, 9500 
  GILMAN DRIVE, MC 0332, LA JOLLA, CALIFORNIA 92093-0332; BEN 
SANTER, RESEARCH SCIENTIST, PROGRAM FOR CLIMATE MODEL DIAGNOSIS 
 AND INTERCOMPARISON, LAWRENCE LIVERMORE NATIONAL LABORATORY, 
MAIL CODE L-103, 7000 EAST AVENUE, LIVERMORE, CALIFORNIA 94550; 
STEPHEN H. SCHNEIDER, PROFESSOR, STANFORD UNIVERSITY, 371 SERRA 
MALL, STANFORD UNIVERSITY, STANFORD, CALIFORNIA 94305-5020; AND 
 WILLIAM HAPPER, CYRUS FOGG BRACKETT PROFESSOR, DEPARTMENT OF 
   PHYSICS, PRINCETON UNIVERSITY, PRINCETON, NEW JERSEY 08544

    The Chairman. Our first witness this morning is Dr. Ralph 
Cicerone. Dr. Cicerone is the President of the National Academy 
of Sciences and the Chair of the National Research Council. 
Previously, Dr. Cicerone was President of the American 
Geophysical Union and Chancellor of the University of 
California at Irvine. He has been the recipient of many awards. 
We welcome you, Doctor. Whenever you feel comfortable, please 
begin.

                 STATEMENT OF RALPH J. CICERONE

    Mr. Cicerone. Thank you, Chairman Markey, for the 
invitation to appear before you and Ranking Minority Member 
Sensenbrenner and the other members of your Select Committee 
today. With your permission, I will read from my prepared 
testimony, but I will not read all of it due to time 
limitations.
    As most of you know, the National Academy of Sciences was 
created by Congress under President Lincoln in 1863 with a 
mission to respond to requests from the Federal Government on 
all matters of science. Thus, we are not part of the Federal 
Government, but we were created by the Federal Government. We 
elect our members annually based on their original 
contributions to research in their fields of science; and today 
we operate largely through the National Research Council, which 
serves us and our partner, the National Academy of Engineering.
    We are very proud of our history of independence and our 
objective analysis, and we work very hard to maintain it. The 
individuals who serve on our study committees are not 
compensated except for their direct expenses, such as travel.
    I would like to present a brief summary of what scientists 
have learned about contemporary climate change, then go on to 
briefly describe our new National Research Council report, 
America's Climate Choices, and conclude with some remarks about 
how to protect and improve the ability of scientists in their 
research conduct and in their communications with the 
policymakers.
    I will start with a brief summary on data, things we are 
actually measuring.
    First, the temperatures of air and water. The most striking 
feature of these data is the rise in temperatures over all of 
the world since the late 1970s or perhaps 1980. The warming is 
strongest in the Arctic and over world land areas, with smaller 
warmings over oceans. When you average over the entire planet 
day and night, you find about one degree Fahrenheit since 1979 
of warming.
    There are several groups around the world who do this work, 
notably, in the United States, the Goddard Institute for Space 
Studies at NASA and the National Climatic Data Center of NOAA. 
To see these patterns clearly of temperature change requires 
continuous sustained efforts. For example, when we look at 
small regions in short periods of time, we can get fooled 
easily by the ups and downs of local weather or by changes that 
do not go on to persist. For example, this past winter in New 
York and Washington was relatively cold, while Montreal was 
relatively hot. The year 2009 as a whole was the warmest on 
record for the world south of the equator. So even with a 
variable as simple and familiar as temperature, we need 
sustained measurements from many places, as opposed to simply 
relying completely on our own senses to tell us what is 
happening where we live.
    Ocean surface temperatures are also on the rise. We see 
this from shipboard measurements and from recent satellite 
observations. It is a global warming. Temperatures vary with 
water depth; and the most important one to keep track of is the 
total heat content of the upper oceans, the water that is in 
closest contact with the air.
    Arctic sea ice. Most of us are aware that the horizontal 
extent of the ice covering the Arctic Ocean has shrunk, with 
especially rapid decreases in the amount of open water in the 
summertime Arctic in the past decade. This decreasing 
horizontal extent has been visible, literally, from satellite 
images and from reports of marine navigators. But a measure 
that has not been known as widely and is much more difficult to 
obtain is the thickness of the Arctic sea ice. We now know that 
the thickness has decreased by more than 50 percent in the last 
50 years. These data come to us from recently declassified U.S. 
Navy work and recent satellite data.
    Ice on Greenland and the Antarctica continent. There are 
massive amounts of ice perched on Greenland and Antarctica, and 
they are very important in Earth's climate. Just in the past 
few years, about 9 or 10 years, it has become possible to 
measure changes in the masses of ice in these two places. The 
data show that ice is being lost and at accelerating rates. Of 
course, snow is added during the respective wintertimes and 
lost in the following summers, but, rather than being in 
balance, the net annual change is negative, and increasingly 
so. These key measurements are from NASA satellites, which use 
ultrasensitive gravity measurements and sophisticated radars.
    Sea level. Sea levels are rising worldwide. The 
measurements are now made by specialized radar ranging 
instruments on Earth-orbiting satellites. Prior to 1992, the 
best estimate of global average sea level rise was about 1.6 
millimeters a year, and there were significant differences from 
continent to continent. Now the observed rate is twice as much, 
3.2 millimeters a year, and the worldwide average is known more 
clearly. And we can explain this sea level rise much better 
than 10 years ago by simply adding the rates due to the warming 
of water--which expands the water in the ocean--the loss of ice 
from Greenland, the loss of ice from Antarctica, and the loss 
of ice from continental glaciers. So that picture is becoming 
clearer.
    There are many other climate indicators which I won't go 
into now except that more high-intensity precipitation events 
are being recorded, as Representative Hall mentioned.
    How do we explain and predict the climate change? Well, the 
greenhouse effect, the physics of it, has been known for about 
100 years now, and we have obtained increasingly quantitative 
information on what is in the air, how it is changing, and 
where the chemicals are coming from, largely from human 
activity.
    Not only does the greenhouse effect and the energy balance 
calculations from it tell us what is happening and explain 
reasonably well the warming that we are seeing, but there 
really is no other theory that has come forward, despite the 
best efforts of all of us over the last 30 years to come up 
with an alternative explanation. So we gain more confidence in 
the explanation that the greenhouse gases are the driving 
force.
    Now the reports that we released yesterday, May 19, called 
America's Climate Choices, are broken into three pieces. One is 
called Advancing the Science of Climate Change, the second is 
called Limiting the Magnitude of Future Climate Change, and the 
third is called Adapting to the Impacts of Climate Change. I 
don't have time to summarize these reports, but I would be glad 
to try to answer any questions that might arise.
    On the conduct of science, Chairman Markey, you asked us 
what policies might be necessary to protect and improve 
scientists' ability to conduct research and to share scientific 
information with policymakers.
    First, on the conduct of climate research, the good news is 
that we have one of the essential ingredients, smart and 
motivated scientists, many of whom are very young and are drawn 
to this field. They are ready to go, and many of them are 
already involved. Of course, they need instruments and 
computers and access to data from all over the world.
    I do know that some scientists have been harassed and 
threatened, but so far I do not see the need for protections 
aside from our normal civil laws. Instead, perhaps, as 
Representative Cleaver said, an atmosphere of civility and of 
encouraging scientists to seek the truth and to share their 
findings is always needed.
    The biggest difficulty of sharing information I believe is 
one of communication. The scientific jargon, the scientific 
specialization which is necessary to make progress has made it 
more difficult for us as scientists to talk outside of our own 
circles, and we really need to do a better job.
    But a final ingredient is what we call these assessments 
that have begun to occur. For example, the assessments 
conducted by the United States Federal Global Change Research 
Program and those of the IPCC. These are high-level evaluations 
of all the peer-reviewed literature in the field written in 
terms that are more generally understandable so that the state 
of the art, the state of the science is defined periodically 
and communicated as well as possible to the general public. I 
think those efforts, and of course those of the academy try to 
do the same thing, but those kinds of high-level assessments 
are essential for this sharing of information more effectively.
    Thank you, Chairman Markey.
    [The statement of Mr. Cicerone follows:]
    [GRAPHIC] [TIFF OMITTED] 58145A.003
    
    [GRAPHIC] [TIFF OMITTED] 58145A.004
    
    [GRAPHIC] [TIFF OMITTED] 58145A.005
    
    [GRAPHIC] [TIFF OMITTED] 58145A.006
    
    [GRAPHIC] [TIFF OMITTED] 58145A.007
    
    [GRAPHIC] [TIFF OMITTED] 58145A.008
    
    The Chairman. Thank you, Dr. Cicerone, very much.
    Our second witness is Dr. Mario Molina. Dr. Molina is a 
professor in the Department of Chemistry and Biochemistry at 
the University of California at San Diego. He won the 1995 
Nobel Prize in chemistry for his research on ozone layer 
depletion conducted at MIT. Dr. Molina is the founder of the 
Molina Center for Strategic Studies in Energy and the 
Environment in Mexico City. He serves on the President's 
Committee of Advisors in Science and Technology.
    We welcome you, Dr. Molina. Whenever you are ready, please 
begin.

                   STATEMENT OF MARIO MOLINA

    Mr. Molina. Thank you, Chairman Markey and members of the 
Select Committee, for giving me the opportunity to testify here 
today. I will attempt to summarize and briefly discuss here 
various questions concerning the current state of knowledge 
related to the climate change threat.
    As we heard in various media reports as well as in these 
halls, some groups have stated in recent months that the basic 
conclusion of climate change science is not valid. This 
conclusion is that the climate is changing as a consequence of 
human activities with potentially very serious consequences for 
society. The basis of these allegations is mainly the exposure 
of stolen e-mails from the University of East Anglia and the 
discovery of some errors and supposed errors in the last report 
of the Intergovernmental Panel of Climate Change, the IPCC.
    However, several groups of scientists have recently pointed 
out that the scientific consensus remains unchanged and has not 
been affected by these allegations. These groups include the 
one Chairman Markey referred to earlier on, namely, the 
statement from these 255 scientists published in Science 
Magazine.
    The conclusion is that it is now well established that the 
accumulation of greenhouse gases resulting from human 
activities is causing the average surface temperature of the 
planet to rise at a rate outside of natural variability with 
potentially damaging consequences for society. I fully agree 
with this conclusion.
    There are, in fact, some errors in the IPCC's report, but 
in my view, they certainly do not affect the main conclusion. I 
will not review the nature of these errors here. They have been 
discussed in detail elsewhere.
    On the other hand, the science of climate change has 
continued to evolve. New findings since this IPCC report came 
out in 2007 indicate that the impacts of climate change are 
expected to be significantly more severe than previously 
thought.
    There appears to be a gross misunderstanding of the nature 
of climate change science among those that have attempted to 
discredit it. They convey the idea that the science in question 
behaves like a house of cards. If you remove just one card, the 
whole structure falls part. However, this is certainly not the 
way the science of complex systems works. A much better analogy 
is a jigsaw puzzle. Many pieces are missing, some might even be 
in the wrong place, but there is little doubt that the overall 
image is clear, namely, that climate change is a serious threat 
that needs to be urgently addressed.
    The scientific community is, of course, aware that the 
current understanding of the science of climate change is far 
from perfect and that much remains to be learned, but enough is 
known to estimate the probabilities that certain events will 
take place if society continues with ``business as usual'' 
emissions of greenhouse gases. As expressed in the IPCC report, 
the scientific consensus is that there is at least a nine out 
of ten chance that the observed increase in global average 
temperatures since the industrial revolution is a consequence 
of the increase in atmospheric concentrations of greenhouse 
gases caused by human activities.
    The existing body of climate change, while not entirely 
comprehensive and with still many questions to be answered, is 
robust and extensive; and it is based on many hundreds of 
studies conducted by thousands of highly trained scientists 
with transparent methodologies, publication in public journals 
with rigorous peer review, et cetera. And this is precisely the 
information that society and decision makers in government need 
in order to process the risk associated with the continued 
emission of greenhouse gases.
    I would like to emphasize that policy decisions about 
climate change have to be made by society at large, more 
specifically by policymakers. Scientists, engineers, 
economists, and other climate change experts should merely 
provide the necessary information. However, in my opinion, even 
if there is a mere 50 percent probability that the changes in 
climate that have taken place in recent decades is caused by 
human activities, society should adopt the necessary measures 
to reduce greenhouse emissions, but here I am speaking as an 
individual, not as a scientist.
    It turns out that recent scientific studies have pointed 
out that the risk of runaway or abrupt climate change increases 
rapidly if the average temperature increases above about 8 to 
10 degrees Fahrenheit. Certain so-called ``tipping points'' 
could then be reached, resulting in practically irreversible 
and potentially catastrophic changes to the Earth's climate 
system, with devastating impacts on ecosystems and 
biodiversity. We are talking about changes that would induce 
severe flood damage to urban centers and to island nations as 
sea level rises. We are talking about significantly more 
destructive extreme weather events, such as droughts and 
floods, et cetera. The risk associated with these tipping 
points is perhaps only 20, 30 percent, but we have only one 
planet; and, in my opinion, it is not reasonable to play 
Russian Roulette with this one planet we have.
    I would also like to mention that some groups have stated 
that society cannot afford the cost of taking the necessary 
steps to reduce the harmful emissions. There are indeed 
significant uncertainties about the availability and costs of 
energy supply and energy-end-use technologies that might be 
brought to bear to achieve much lower greenhouse gas emissions 
than those expected on the ``business as usual'' trajectory. 
And yet there is a consensus among experts, namely, that the 
reasonable target to prevent dangerous interference with the 
climate system is to limit the average surface temperature 
increase above pre-industrial levels to about 4 degrees 
Fahrenheit. The cost is only of the order of 1 to 2 percent of 
global GPD, and the cost associated with the negative impacts 
of climate change is very likely larger.
    Furthermore, besides economic considerations, as we heard 
before, there is an imperative ethical reason to address the 
problem effectively: Our generation has the responsibility to 
preserve an environment that will not make it unnecessarily 
difficult for future generations in our planet to have an 
environment of natural resources suitable for the continued 
improvements of their economic well-being.
    The global problem caused by greenhouse gas emissions has 
many similarities to the stratospheric ozone problem. In both 
cases, it is crucial to change business as usual by 
collaboration between nations as one global community. But the 
quick, effective, and highly successful implementation of the 
Montreal Protocol to protect the ozone layer stands in stark 
contrast with the Kyoto Protocol, the international treaty 
developed in 1997 to address the climate change challenge that 
is currently being reassessed. But society has yet to find a 
better way to agree on effective actions on climate change.
    On the other hand, the extent of change necessary to phase 
out the ozone-depleting chemicals was relatively small and 
relatively easy to monitor. In contrast, climate change is 
caused mainly by activities related to the production and 
consumption of fossil fuel energy, which has so far been 
essential for the functioning of our industrialized society. 
Effective action, therefore, requires a major transformation 
not only in a few industries but in a great number of 
activities of society.
    The Montreal Protocol stands out as an important precedent 
that demonstrates that an effective international agreement can 
indeed be negotiated. Thus, I believe that negotiating an 
effective climate change treaty is feasible, although very 
challenging. Nevertheless, such a treaty would undoubtedly 
benefit the entire world, as was clearly the case with the 
Montreal Protocol.
    Thank you, Mr. Chairman.
    [The statement of Mr. Molina follows:]
    [GRAPHIC] [TIFF OMITTED] 58145A.009
    
    [GRAPHIC] [TIFF OMITTED] 58145A.010
    
    [GRAPHIC] [TIFF OMITTED] 58145A.011
    
    [GRAPHIC] [TIFF OMITTED] 58145A.012
    
    The Chairman. Thank you, Dr. Molina, very much.
    Our third witness today is Dr. Ben Santer. Dr. Santer is a 
research scientist in the program for Climate Model Diagnosis 
and Intercomparison at the Lawrence Livermore National 
Laboratory.
    Previously, Dr. Santer was on the staff of the Max Planck 
Institute for Meteorology in Hamburg, Germany. He served as a 
convening lead author for the 1995 report of the IPCC. He holds 
a Ph.D in climatology from the Climactic Research Unit at the 
University of East Anglia and has been a recipient of the 
MacArthur Fellowship.
    We welcome you, sir. Whenever you are ready, please begin.

                    STATEMENT OF BEN SANTER

    Mr. Santer. Chairman Markey, I would like to thank you, 
Ranking Minority Member Sensenbrenner, and the other members of 
the House Select Committee for the opportunity to appear before 
you today. This is my first testimony.
    I have been employed since 1992 at Lawrence Livermore 
National Lab's program for Climate Model Diagnosis and 
Intercomparison. Our group was established in 1989 by the U.S. 
Department of Energy. Our omission is to quantify how well 
computer models simulate important aspects of present day and 
historical climate and to reduce uncertainties in climate model 
projections of future changes.
    As you mentioned, I have a Ph.D in climatology from the 
Climatic Research Unit of the University of East Anglia. I went 
to the Climatic Research Unit in 1983 because it was and still 
remains one of the world's premiere institutions for studying 
past, present, and future climate.
    After completing my Ph.D in 1987, I devoted much of my 
scientific career to climate fingerprinting, which seeks to 
understand the causes of recent climate change. The basic 
strategy in fingerprinting is to search through observational 
records for the climate change pattern predicted by a computer 
model. This pattern is called the fingerprint. The underlying 
assumption is that each influence on climate, such as purely 
natural changes in the sun or human-caused changes in 
greenhouse gas concentrations, has a unique distinguishing 
fingerprint.
    In the mid-1990s, fingerprint research focused on changes 
in land and ocean surface temperature. This research provided 
support for the Discernable Human Influence conclusion of the 
1996 IPCC Second Assessment Report.
    One criticism of the first fingerprint studies went 
something like this: If there really is a human-caused climate 
change signal lurking in observations, scientists should see 
this signal in many different aspects of the climate system, 
not in surface temperature alone.
    Over the past 14 years, the scientific community has 
responded to this criticism. We have now performed fingerprint 
studies with many different properties of the climate system, 
such as the heat content of the ocean, the temperature of the 
atmosphere, the salinity of the Atlantic, large-scale rainfall 
and pressure patterns, atmospheric moisture, continental 
runoff, and Arctic sea ice extent. The message from all of 
these studies is that natural causes alone cannot explain the 
observed climate changes over the second half of the 20th 
century. The best explanation of the observed climate changes 
invariably involves a large human contribution.
    Extraordinary claims require extraordinary proof. The 
IPCC's extraordinary claim that there is a discernible human 
influence on global climate has received extraordinary 
scrutiny. This claim has been independently corroborated by the 
U.S. National Academy of Sciences, the science academies of 
other nations, and the reports of the U.S. Climate Change 
Science Plan. Many professional scientific organizations have 
also affirmed the reality of the human influence on global 
climate.
    Finally, I would like to make a few comments regarding some 
of the nonscientific difficulties I have faced. In April, 1994, 
I was asked to serve as convening lead author of chapter eight 
of the IPCC's Second Assessment Report. Chapter eight reached 
the now historic conclusion that there is a discernible human 
influence on global climate. This sentence changed my life.
    Shortly after publication of the `96 IPCC report, I was 
publicly accused of political tampering, scientific cleansing, 
of abuses of the peer-review system, and even of irregularities 
in my own scientific research. Responses to these unfounded 
allegations have been given in a variety of different fora by 
myself, by the IPCC, and by other scientists, yet the 
allegations remain much more newsworthy than the rebuttals.
    I firmly believe that I would now be leading a different 
life if my research suggested that there was no human effect on 
climate. I would not be the subject of congressional inquiries, 
Freedom of Information Act requests, or e-mail threats. I would 
not need to be concerned about the safety of my family.
    It is because of the work I do and because of the findings 
my colleagues and I have obtained that I have experienced 
interference with my ability to perform scientific research. As 
my testimony indicates, the scientific evidence is compelling. 
We know beyond a shadow of a doubt that human activities have 
changed the chemical composition of the Earth's atmosphere, and 
we know that these human-caused changes in the levels of 
greenhouse gases make it easier for the atmosphere to trap heat 
and have had important effects on our climate.
    Some take comfort in clinging to the false belief that 
humans do not have the capacity to influence global climate, 
that ``business as usual'' is good enough for today. Sadly, 
business as usual will not be good enough for tomorrow. The 
decisions we reach today will impact the climate future that 
our children and grandchildren inherit. I think most Americans 
want those decisions to be based on the best available 
scientific information, not on wishful thinking or on well-
funded disinformation campaigns.
    This is one of the defining moments in our country's 
history and in the history of our civilization. For a little 
over a decade, we have achieved true awareness of our ever-
increasing influence on global climate. We can no longer plead 
that we were ignorant, that we did not know what was happening. 
Future generations will not care about the political or 
religious affiliations of the men and women in this room. What 
they will care about is how effectively we address the problem 
of human-caused climate change.
    Thank you.
    [The statement of Mr. Santer follows:]
    [GRAPHIC] [TIFF OMITTED] 58145A.013
    
    [GRAPHIC] [TIFF OMITTED] 58145A.014
    
    [GRAPHIC] [TIFF OMITTED] 58145A.015
    
    [GRAPHIC] [TIFF OMITTED] 58145A.016
    
    [GRAPHIC] [TIFF OMITTED] 58145A.017
    
    [GRAPHIC] [TIFF OMITTED] 58145A.018
    
    [GRAPHIC] [TIFF OMITTED] 58145A.019
    
    [GRAPHIC] [TIFF OMITTED] 58145A.020
    
    [GRAPHIC] [TIFF OMITTED] 58145A.021
    
    [GRAPHIC] [TIFF OMITTED] 58145A.022
    
    [GRAPHIC] [TIFF OMITTED] 58145A.023
    
    [GRAPHIC] [TIFF OMITTED] 58145A.024
    
    [GRAPHIC] [TIFF OMITTED] 58145A.025
    
    [GRAPHIC] [TIFF OMITTED] 58145A.026
    
    [GRAPHIC] [TIFF OMITTED] 58145A.027
    
    [GRAPHIC] [TIFF OMITTED] 58145A.028
    
    [GRAPHIC] [TIFF OMITTED] 58145A.029
    
    [GRAPHIC] [TIFF OMITTED] 58145A.030
    
    [GRAPHIC] [TIFF OMITTED] 58145A.031
    
    [GRAPHIC] [TIFF OMITTED] 58145A.032
    
    [GRAPHIC] [TIFF OMITTED] 58145A.033
    
    [GRAPHIC] [TIFF OMITTED] 58145A.034
    
    [GRAPHIC] [TIFF OMITTED] 58145A.035
    
    [GRAPHIC] [TIFF OMITTED] 58145A.036
    
    [GRAPHIC] [TIFF OMITTED] 58145A.037
    
    [GRAPHIC] [TIFF OMITTED] 58145A.038
    
    [GRAPHIC] [TIFF OMITTED] 58145A.039
    
    [GRAPHIC] [TIFF OMITTED] 58145A.040
    
    [GRAPHIC] [TIFF OMITTED] 58145A.041
    
    [GRAPHIC] [TIFF OMITTED] 58145A.042
    
    [GRAPHIC] [TIFF OMITTED] 58145A.043
    
    [GRAPHIC] [TIFF OMITTED] 58145A.044
    
    The Chairman. Thank you, Dr. Santer, very much.
    Our fourth witness today is Dr. Stephen Schneider. Dr. 
Schneider is a professor of interdisciplinary environmental 
studies and biological studies at Stanford University. He has 
contributed to all four assessment reports of the IPCC and 
served as a coordinating lead author for the Fourth Assessment. 
He is as well a recipient of a MacArthur fellowship and is a 
member of the National Academy of Sciences.
    We welcome you, Doctor. Whenever you are ready, please 
begin.

               STATEMENT OF STEPHEN H. SCHNEIDER

    Mr. Schneider. Thank you very much, Chairman Markey and the 
members of the Select Committee. The fact that the Select 
Committee has been designed to integrate across multiple 
committees of the Congress I think is a very excellent idea 
because climate change, like many other complex problems, 
including health care and defense and education, involves that 
integration, and we need to get out of our silos. So I 
appreciate this opportunity.
    One of the things I want to do very fast in my oral 
testimony is to try to put a little bit of context on the 
cacophonous debate that we often see in the world out there, 
the political world and media world, and point out that 
frequently that debate has very little correlation with the 
debate that actually takes place within the knowledge 
community, most of which you have already heard described from 
colleagues.
    This is not to say there aren't many uncertainties, and my 
written testimony dwells on the whole history of that. In fact, 
the IPCC, which you mentioned that I have been involved in all 
four--in fact, I jokingly call this my pro bono day job--has 
pioneered in pointing out that when we discuss any conclusion 
that the consensus that we are talking about is not simply the 
consensus about a conclusion, some of which may not be fully 
established, but the consensus is over the relative confidence 
we have in those conclusions. That is, we assess risk, what can 
happen multiplied by the probability, and then we leave the 
risk management judgments, the what to do about it, the value 
judgments, where they more properly belong, as Dr. Molina told 
us, in the decisions that are made by you and others, including 
private citizens. So let me begin with just a few slides to try 
to frame this context.
    One of the questions that I am often asked is, is the 
science of global warming settled? And I like to ask my 
audiences what they think; and, depending on who you talk to, 
it is somewhere between 20 and 70 percent of people. But after 
asking how many believe that it is and isn't, I then ask how 
many think it is a stupid question. Because, in fact, it is a 
stupid question. Because most people think of science what they 
did in high school. You put in a piece of litmus paper and you 
can falsify whether it is an acid or a base in my cup of water. 
But you cannot do that in system science, and you certainly 
cannot do that for the future, because there is no data in the 
future until it rolls around. So the question that we have is 
what kind of risks are we willing to take with a projection of 
future that can only be validated by performing the experiment 
on that laboratory we call Earth?
    So why is it a dumb question? Because when you have a 
system science, there will be well-established components, and 
there are many that are settled, and we have already heard from 
colleagues, that includes observed temperatures and so forth. 
There will also be competing explanations, those things we have 
narrowed down to a few, and there will be speculative. And as 
we heard from the house of cards analogy, just because there 
are speculative components does not refute the well-
established, nor is it legitimate to take well-established 
components and ignore the fact that there are still elements 
that we don't know.
    So let me give you a few examples in my remaining 2 
minutes.
    We have already referred to what IPCC called unequivocal 
warming. Well, there is the record. And you can see that there 
are, indeed, as the ranking member said, a number of pulses, 
but the most recent one is by far the largest and the one that 
stands out the highest.
    But the aspect I want to talk about is on the next slide. 
Because I have heard this asserted many times in the public 
debate and even in congressional testimony by Members that 
since it hasn't warmed up much over the last 10 years that this 
falsifies global warming. However, if you took a look at what 
we call cherry-picking--that is, picking endpoints that are 
convenient to make a point--between 1992 and 2002, as the slide 
jokingly says, we are going to hell in a hand basket.
    What we are looking at is the normal natural variability of 
the climate system on interdecadal time scales. All modelers, 
all measurers who understand climate science know this and 
assert it, and to cherry-pick out of context short-term records 
for political convenience is indeed not sound science and, 
unfortunately, is all too common. It was at a fever pitch when 
in January there was a snowstorm and cold weather here, which 
led certain people to assert that this cold snowstorm was 
therefore proof that there was no global warming.
    The irony is it occurred in one of the warmest Januaries 
ever recorded, which no climate scientist would have said 
proves global warming. It is too short a record. But one 
snowstorm proves nothing except what the next cartoon does, 
which is slush for brains, or why is it going to be covered?
    This is a serious problem, because the public and other 
people actually think there is credibility in the reference of 
short-term records when we know that there isn't any. That 
causes a confusion, and when the public is confused, it makes 
it difficult, I understand, for you to do your jobs of trying 
to think outside the box from a policy point of view.
    Let me hurry to conclude.
    Let me show you an example of competing explanations. There 
is no competing explanation that Greenland is melting very 
rapidly. It is. But why is that? Is that a natural internal 
variability in the north Atlantic climate system, as some have 
asserted? Undoubtedly, that is a component. Or is this due to 
global warming? The only way to answer that definitively is 
hang around another century performing the experiment on 
laboratory Earth. But there are other things that we can and 
will do and have done, which is to look at the melt of snow 
layers over the last thousand years. And when you do that high 
on the Greenland glacier, you find that there are many areas 
that have never melted before. That is not absolute proof, but 
that tips my belief to it is much more likely than not that 
global warming is at least a significant component of this and 
you cannot rule out a very important part.
    So let me conclude then by saying, in the future, how do we 
project? There are two fans of uncertainty. The one in this 
picture from the IPCC is human behavior--low, medium, high 
emissions. That is what your committee and the Congress and 
other people in the world are grappling with, how much in our 
risk management frame do we want to control?
    But there is a second fan of uncertainty on the right side 
of the next to last slide; and that is, what is the internal 
dynamics of the climate system, the so-called ``climate 
sensitivity?'' If we double carbon dioxide, how much does it 
warm up?
    Well, IPCC, which is very conscious of uncertainty, said it 
was very likely--meaning two-thirds to 90 percent chance--
somewhere between 2 degrees Celsius and 4.5. That still leaves 
a 5 to 17 percent chance it could be below or above. And it is 
those tales of the possibility which are the most threatening 
and that have insurance companies and others worried. That 
gives us very clear belief that there is serious potential 
warming coming, but we still have an amazingly large range that 
will not be resolved any time soon.
    And the last slide is basically one I borrowed from MIT to 
remind us that what we are really looking at is a wheel of 
fortune, where if we are ``lucky,'' the lower slots are two to 
three times the warming that we are now experiencing, and that 
is not from business as usual but a substantial reduction in 
emissions. And that if we are unlucky and we have high 
sensitivity and we continue with business as usual, we could 
see warming of many, many degrees comparable to the differences 
between an Ice Age and an interglacial cycle occurring not in 
thousands of years but in a century. And it is those kinds of 
outlier cases which, when we are talking about the planetary 
life support system, that motivates scientists to reasons for 
concern.
    Thank you, sir.
    [The statement of Mr. Schneider follows:]
    [GRAPHIC] [TIFF OMITTED] 58145A.045
    
    [GRAPHIC] [TIFF OMITTED] 58145A.046
    
    [GRAPHIC] [TIFF OMITTED] 58145A.047
    
    [GRAPHIC] [TIFF OMITTED] 58145A.048
    
    [GRAPHIC] [TIFF OMITTED] 58145A.049
    
    [GRAPHIC] [TIFF OMITTED] 58145A.050
    
    [GRAPHIC] [TIFF OMITTED] 58145A.051
    
    [GRAPHIC] [TIFF OMITTED] 58145A.052
    
    [GRAPHIC] [TIFF OMITTED] 58145A.053
    
    [GRAPHIC] [TIFF OMITTED] 58145A.054
    
    [GRAPHIC] [TIFF OMITTED] 58145A.055
    
    [GRAPHIC] [TIFF OMITTED] 58145A.056
    
    [GRAPHIC] [TIFF OMITTED] 58145A.057
    
    The Chairman. Thank you, Doctor, very much.
    Our final witness today is Dr. William Happer. Dr. Happer 
is a professor in the Department of Physics at Princeton 
University. His research focuses on the fundamental 
interactions between atoms, molecules, and light.
    Previously, he served on the faculty of Columbia 
University. Dr. Happer served as Director of Energy Research in 
the Department of Energy under the first President George Bush. 
He received his Ph.D in physics from Princeton. He is a member 
of the National Academy of Sciences.
    We welcome you, Dr. Happer. Whenever you are ready, please 
begin.

                  STATEMENT OF WILLIAM HAPPER

    Mr. Happer. Well, thank you very much, Mr. Chairman.
    I am going to do my best. I really had less than 24 hours 
to try to put this together, so I ask your indulgence.
    When you wrote me, you asked three questions. I am going to 
try and answer them one by one.
    So the first question, to what extent does CO<INF>2</INF> 
lead to global warming--and we just heard from Stephen that 
IPCC says between 2 and 4 is a reasonable guess--I personally 
think there are very strong arguments that it is less than 2 
degrees centigrade. If I were to take an educated guess, I 
would say less than 1 degree centigrade for doubling 
CO<INF>2</INF>. Let me explain why.
    This is a plot of CO<INF>2</INF>, left to right. And on the 
vertical scale is the rise in the temperature of the Earth that 
is caused by these changes in CO<INF>2</INF>. And what you see 
here is that we are now at about 380 in the outside air, if it 
is well mixed, and so we are about one-third of the way through 
here. We are in a region of this curve where adding 
CO<INF>2</INF> makes very little difference. So people say this 
is a saturated curve. You know, we are reaching a point of 
diminishing returns.
    Why does this happen? Let me show you the next curve.
    So this is what the Earth looks like. Actually, this is a 
model, but there are satellite pictures that look almost 
exactly like that, lots of them. And what you see here is 
wavelengths or the color of the infrared radiation going down, 
the amount of radiation at each of these different colors, 
different wavelengths. And you can see, indeed, there is less 
radiation going out at the CO<INF>2</INF> band. That is in the 
middle of the figure. That is that big gap. And there is a 
region, the infrared window, which is pretty clear where 
radiation goes out almost unimpeded if there are no clouds. 
And, finally, there are regions on the left and right which are 
heavily attenuated by water vapor and methane and nitrous 
oxide.
    Now, the question is, what happens--look at that 
CO<INF>2</INF> band that is between the two vertical lines. 
What happens if we change the concentration? Well, okay. This 
is where we are today, 380 parts per million, maybe a little 
more now. Now, suppose you double that.
    Let me have the next one. I am sorry, I couldn't get these 
on the same scale.
    But what is the difference? Look at the CO<INF>2</INF> gap. 
There is very little difference. In fact, what happens when you 
add CO<INF>2</INF> is that you slightly widen the 
CO<INF>2</INF> absorption band. There is no question about this 
physics. And it is really not enough to cause very much 
warming.
    So the alarming figures of warming assume that somehow this 
little effect of CO<INF>2</INF> is greatly amplified by water 
vapor in clouds. So that is really the heart of the scientific 
debate.
    Okay. Next transparency.
    Question two, How important are climate systems--clouds, 
water, vapor--simulated in computer models that are used to 
predict climate change? And, as I mentioned, most models 
predict that water vapor and clouds will greatly amplify 
CO<INF>2</INF>, but there is little support for these 
observations.
    In my haste to write this down, I dropped a word after 
water vapor and clouds. I say water vapor and clouds ``may'' 
diminish--please correct the record here--may diminish the 
warming due to CO<INF>2</INF>. There is some evidence that is 
suggestive of that.
    And furthermore, and most importantly, the models don't 
predict the big changes of temperature in the past where no 
fossil fuels were being burnt.
    Next, transparency three.
    Well, first of all, what about the present? These are the 
various IPCC reports and the central warming trend at each 
report. There have been, I guess, four of them. And you can see 
every single report has overstated the warming that has been 
observed, all been overstated. So I think there is an upward 
bias on the predictions.
    Next transparency.
    This is the celebrated temperature record from the year 
1000 to the present. The first IPCC report had the upper 
figure. This is from Dr. Lamb, the first Director of the East 
Anglia Institute, showing a very pronounced medieval warm 
period. That is when the Vikings settled Greenland and when 
Greenland had less ice than now, probably. And the lower is the 
IPCC report in 2001. They completely eliminated the 1990 one 
and a completely different curve, which shows no medieval 
warming, no little Ice Age. So this is a worry.
    Next transparency.
    We heard this morning CO<INF>2</INF> referred to as a 
pollutant. I actually brought along a CO<INF>2</INF> meter. If 
you will permit me, I will look at the reading in this room. 
Would anyone care to guess what the CO<INF>2</INF> level in the 
room is? Well, okay. I sometimes offer a $10 reward.
    Mr. Schneider. Four hundred and fifty.
    Mr. Happer. Good, Steve. You are a good sport.
    Mr. Cicerone. Five hundred and fifty.
    Mr. Happer. Ralph wins the golden ring. It is 590. That is 
because of all my hot air and my friends here.
    You know, when we exhale air, it is 40,000 parts per 
million in our exhaled breath. So CO<INF>2</INF> really is not 
a pollutant. You can call it many things, but I think that is 
really not fair.
    This is CO<INF>2</INF> in the past. Look at the vertical 
scale. That is the levels in the past. It is measured in 
thousands of parts per million. It has almost never been as low 
in the past as it is now. So we are really in a very unusual 
time with respect to CO<INF>2</INF>.
    Next transparency.
    Okay, so this was the final question to me, what policies 
are necessary to protect and improve scientists' ability to 
conduct research and share scientific information? I would like 
to argue that this debate is so important that it really has 
not had the right adversarial review that it needs. And I don't 
mean Internet diatribes. I mean serious studies by scientists.
    I think we need the equivalent of a team B approach that is 
so often used--and very successfully--in DOD and CIA on 
important questions. You put together a real tiger team that is 
charged with coming up with what is wrong with the leading 
position. So I would strongly urge that such a team be formed, 
that it be supported by the government, and that it be given 
every opportunity to make its case.
    Actually, the church used to do that for saints. There was 
always a devil's advocate, right? And if you wanted to be a 
saint, you had to get through this hurdle. We have not done 
that with climate change.
    So that concludes my testimony. Thank you.
    [The statement of Mr. Happer follows:]
    [GRAPHIC] [TIFF OMITTED] 58145A.058
    
    [GRAPHIC] [TIFF OMITTED] 58145A.059
    
    [GRAPHIC] [TIFF OMITTED] 58145A.060
    
    [GRAPHIC] [TIFF OMITTED] 58145A.061
    
    [GRAPHIC] [TIFF OMITTED] 58145A.062
    
    [GRAPHIC] [TIFF OMITTED] 58145A.063
    
    [GRAPHIC] [TIFF OMITTED] 58145A.064
    
    [GRAPHIC] [TIFF OMITTED] 58145A.065
    
    The Chairman. Thank you, Doctor, very much.
    Now we will turn to questions from the subcommittee 
members, and the chair will recognize himself.
    The gentleman from Wisconsin has mentioned a number of 
issues surrounding climate e-mails. One that he didn't mention 
and which might be the most scandalous was Vice President 
Cheney's refusal to accept an e-mail transmitted by the EPA 
Administrator, Steven Johnson, during the Bush administration, 
finding that carbon dioxide is a threat to public health and 
welfare.
    The Chairman. In other words, it was actually the Bush 
administration EPA that made that determination, made the 
endangerment finding, but the White House refused to accept 
that finding, which necessitated for Lisa Jackson and the Obama 
administration to begin again and to make that finding in 2009.
    I would like to ask all of our witnesses if they believe 
that the scientific evidence is strong enough to support the 
adoption of policies that would reduce carbon pollution.
    Dr. Cicerone.
    Mr. Cicerone. Yes.
    The Chairman. Dr. Molina.
    Mr. Molina. Yes, very much. Clarifying this is a statement 
that is individual, but the science is very clear that the risk 
is large. As an individual, I think it is not wise to take that 
risk.
    The Chairman. Dr. Santer.
    Mr. Santer. Yes.
    The Chairman. Dr. Schneider.
    Mr. Schneider. Yes. My value judgment is the same as my 
other colleagues. I have fire insurance on my house for a 2 
percent risk, and we are talking about a planetary life support 
system. With coin flip odds, it is a very serious change, and I 
don't consider it responsible to ignore such odds.
    The Chairman. Dr. Happer.
    Mr. Happer. No, I don't. I have explained why. I have 
explained that we are sitting in a room that is heavily 
polluted with CO<INF>2</INF> and I think more CO<INF>2</INF> 
would be good for the Earth.
    The Chairman. Now, you have just heard what Dr. Schneider 
said about the fact that he takes out insurance on his home, 
fire insurance, even though there is only a 2 percent chance 
that he will ever have a fire. Is your conclusion based on your 
analysis that climate--your climate science conclusions are 
right and the consensus is wrong and, as a result, we shouldn't 
take measures that reduce the likelihood that this can happen, 
that is, more investment in renewables and carbon capture and 
sequestration and other technologies that can reduce this risk?
    Mr. Happer. I am certainly in favor of further research in 
climate change. It is very important. But I do not believe that 
CO<INF>2</INF> is a problem, and I think more CO<INF>2</INF> 
would be good. And that is based on my scientific judgment.
    The Chairman. More CO<INF>2</INF> would be good?
    Mr. Happer. Yes.
    The Chairman. Dr. Schneider, could you respond to that, 
please?
    Mr. Schneider. You know, I am not sure that most of my 
marine biology colleagues would agree with that statement 
because there has already been a demonstrated increase in the 
acidification of the oceans. The lab experiments are suggesting 
that this is not only a threat to coral reefs but to the bottom 
of food chain for the carbon-based shells and that if we 
continue on past doubling of CO<INF>2</INF> it could very well 
threaten the bottom of the food chain in the ocean.
    So whether you like CO<INF>2</INF> as a fertilizer of green 
plants or not--by the way, it also fertilizes weeds--you 
certainly would not like it in the oceans, and I would consider 
that to be a highly dangerous experiment to perform on the 
Earth.
    The Chairman. Dr. Happer, how do you respond to Dr. 
Schneider in terms of----
    Mr. Happer. Well, I am glad he brought that up, because the 
Earth has already done that experiment. I just showed you 
pictures of CO<INF>2</INF> in the past where the levels were, 
you know, 5,000 parts per million, 7,000 parts per million.
    One of the ways we know that is from looking at carbonate 
shells in the mud and looking at the pH. You can infer that 
from the boron-tin or on 11 isotope ratios. So the ocean has 
already coped with that. Life flourished, you know. So I don't 
see the problem.
    And the changes are very small. At levels of several 
thousand, the pH maybe gets down to 7.6. It is 8.1 now. That is 
half a unit of the pH scale. It is trivial.
    The Chairman. Dr. Santer, how would you respond to Dr. 
Happer in terms of the oceans or any other part of his 
concerns?
    Mr. Santer. Well, I think my major disagreement with Dr. 
Happer relates to the feedbacks. Dr. Happer and I agree that, 
in the absence of positive feedbacks, the warming that we would 
expect due to a doubling of pre-industrial levels of 
CO<INF>2</INF> is relatively modest, less than 2 degrees 
Celsius. It is the feedbacks that concern me. They are 
primarily associated with water vapor, with clouds, and with 
snow and with sea ice.
    I respectfully disagree with Dr. Happer's testimony 
relative to those feedbacks. His testimony indicates that the 
science indicates that the feedbacks associated with water 
vapor and clouds are likely to be close to zero. That is not 
the case.
    Many assessments which have looked at the water vapor 
feedback, for example, have showed clear evidence, for example, 
from the special sensing microwave imager, that water vapor has 
been increasing in Earth's atmosphere since 1988. Those 
increases are consistent with very basic physical theory, with 
what we call the clausius clapeyron relationship.
    Water vapor is a greenhouse gas. We expect it to amplify 
the CO<INF>2</INF>-induced heating of the planet, and that is 
what we see in observations in climate models. We see that 
operating on a range of different time scales, on monthly time 
scales, between La Nina and El Nino, and even on decadal time 
scales. So, unfortunately, I think the observational evidence 
for a zero or close to zero water vapor feedback is just not 
there.
    The Chairman. Thank you.
    Dr. Molina, do you have a comment.
    Mr. Molina. Yes. I again respectfully disagree--disagree 
very strongly with Dr. Happer's statements.
    Take, for example, the geological record. I think if you--
we certainly don't have very much time here to look at all the 
details, but here again, if you take a very serious scientific 
analysis of the record--I am talking about millions and 
millions of years--as carried out, for example, by Dr. Richard 
Alley, who recently has talked about these issues, it is very 
clear that this record shows indeed carbon dioxide is a very 
important component of the climate.
    And, of course, we have seen very different environments in 
the past. We fund the experiment. Life also thrived in our 
environment before there was any oxygen, but that is many 
millions of years ago. It doesn't mean that we could do that 
again.
    So relatively small changes in the system, the planetary 
system, at the moment on a short-time scale--we are talking 
about decades--could certainly have devastating consequences in 
principle for society. Certainly the climate has seen very 
large extremes millions of years ago, but we certainly would 
not want to go again through those extremes. It would be 
exceedingly unwise.
    The Chairman. Dr. Cicerone, I would like to get your 
comments before my time expires.
    Mr. Cicerone. Thank you.
    Yes, I think the forcing due to carbon dioxide increases is 
significant, but when we add in the destabilizing effects of 
adding the increased water vapor is when the future predictions 
get worse.
    Now, I disagree with what Dr. Happer said. We all know 
that, as we heat up water, it evaporates faster. In the 
wintertime, when we go around in very cold air, one of the 
reasons we have static electricity and so forth is that the air 
is so dry. It is a fundamental physical principle that--Dr. 
Santer mentioned the equation, but we don't need the equation 
to see it. We can measure it. Water does increase as the 
temperatures go up. Evaporation gets faster. The evidence in 
the atmosphere we are seeing shows that it is happening.
    The burden of proof for such a strong statement that there 
is no increase in water vapor with warming temperature, the 
burden of proof has to be on those who claim that, because it 
is against not only theory but hundreds of years of 
observations.
    Finally, about the paleoclimate changes when you go back 
hundreds of millions of years, Dr. Molina is right, that life 
on this Earth has thrived in all kinds of extremes, including a 
complete lack of oxygen. That doesn't mean that we would 
thrive.
    Also, the changes, the rate of those changes, they took 50 
million years to happen, 100 million years to happen. The 
changes that we are driving now are happening in decades. It is 
not clear that any living form can adjust so fast.
    The Chairman. Thank you.
    My time has expired. The chair recognizes the gentleman 
from Missouri, Mr. Cleaver.
    Mr. Cleaver. Thank you, Mr. Chairman.
    Dr. Happer, you and I do agree on some things; and, even if 
we didn't, I am one of the silly people who believe that we 
ought to be able to have a civil and intellectual discussion 
without calling names and threatening and that kind of thing, 
which is one of the tragedies at this moment in U.S. history 
that I will not contribute to.
    You and I agree that atmospheric concentrations of 
CO<INF>2</INF> have increased over the last century and that 
combustion of fossil fuels has contributed to the amount in the 
atmosphere and that increasing amounts of CO<INF>2</INF> will 
increase the global temperature. I think our disagreement 
begins after that. You are saying that that--and this is a 
question--that that does not pose any danger to either the 
environment or the creatures on this planet; am I correct?
    Mr. Happer. That is correct.
    Mr. Cleaver. In a garage that has been--with the doors 
closed and even with a reasonable amount of oxygen coming in 
and the car is left running, will that do any damage to an 
occupant in that garage?
    Mr. Happer. Yes, of course. But not because of 
CO<INF>2</INF>, because of CO, for carbon monoxide. I am not in 
favor of carbon monoxide.
    Mr. Cleaver. I am not, either. We agree again.
    The point is--you may have just drawn it even clearer. So 
CO<INF>2</INF> is as harmless as oxygen.
    Mr. Happer. CO<INF>2</INF>--I am sorry. I just didn't hear.
    Mr. Cleaver. Is just like oxygen. It is harmless. It is 
not----
    Mr. Happer. It is more than harmless. It is good. It is 
good for plants.
    And just to follow your analogy, it is very common for 
greenhouse operators to buy lots of propane, not to warm the 
greenhouse but to burn the propane to make CO<INF>2</INF>, 
which they funnel into the greenhouse like your carbon. They 
burn it so there is no carbon monoxide, you know, with excess 
oxygen. And the plants do just fine. You know, the 
CO<INF>2</INF> levels go from 380 to 1,000 at least, often 
2,000, you know, in 15 minutes. The plants are very happy. 
They--it is worth doing that, because you get better product 
and all the little bugs and things do just fine. None of them 
die.
    Mr. Cleaver. Some plants don't seem to be happy. There are 
some plants that are not expressing joy, particularly when you 
go to some of the tropical areas, and there are some animals 
that are not happy. We were in Greenland and the Greenlanders 
were telling us how the little tiny shrimp are trying to get 
out of the warming waters. They don't seem to be happy. I mean, 
I don't want to have a theological discussion on happiness, but 
I am just----
    Mr. Happer. Well, I think we are both for happiness and, 
you know, of course----
    Mr. Cleaver. I am for happiness without CO<INF>2</INF>.
    Mr. Happer. Animals are animals because they can move 
around in response to the environment. We do that ourselves. So 
do fish and shrimp.
    Mr. Cleaver. That is the point.
    Mr. Happer. Yes. So what is new? They have always done 
that.
    Mr. Cleaver. Yes, I know. But they are doing it now.
    Mr. Happer. Well, songbirds migrate from the cold to the 
warm, south when it is winter, you know. So migration has 
always----
    Mr. Cleaver. But they come back. They come back.
    Mr. Happer. I am sure, yes.
    Mr. Cleaver. So you are saying that these tiny shrimp will 
come back?
    Mr. Happer. They will find whatever part of the ocean is to 
their liking and that is where they will stay. And if it 
changes, they will move again.
    Mr. Cleaver. Dr. Schneider, please help.
    Mr. Schneider. Yes, I am sorry--I agree with you about the 
importance of a civil dialogue, but I am sorry to say that the 
ecological naivete in what we just heard is legion. It is very, 
very well-known that the fragmentation of habitats into smaller 
and smaller places has nothing to do with climate. Land use and 
other areas as part of development are a significant threat to 
the preservation of species on Earth. That is well documented.
    Now if you change the climate, as Dr. Happer correctly 
said, in the past species have been able to respond, though not 
all of them fully, but they didn't have to contend with 6\1/2\ 
billion people, some tightly locked into national boundaries, 
living in nutritional margins, and they didn't have to cross 
factories, farms, freeways, and urban settlements.
    So it is the combination--as many reports at the National 
Academy of Science has shown, including some recent ones that 
Ralph Cicerone could tell you about, that it is what we call 
the synergism of the interaction of the fragmentation of 
habitat and then the forced migration across disturbed 
landscape threatens what the literature says somewhere between 
10 and 40 percent of species going extinct, mountaintop 
species. This is not a happy situation if temperature change is 
more than a few degrees.
    And while nobody can tell you whether it is at the 5 or 50 
percent level, that is the kind of risk which, again, we are 
dealing with if we are going to have a business as usual. So it 
is in a sense absurd to argue that because things have happened 
before it is fine now, because we didn't have anywheres near 
the scale of the human enterprise, and this is a completely 
different time than any other in geologic history, and it 
always has to be analyzed relative to the human condition at 
the present.
    Mr. Cleaver. Thank you.
    I yield back, Mr. Chairman.
    The Chairman. The gentleman's time has expired.
    The chair recognizes the gentleman from Washington State, 
Mr. Inslee.
    Mr. Inslee. I appreciate the panel in part because, where I 
live, we are already experiencing fairly dramatic negative 
changes associated with increase in carbon dioxide.
    This is not a theoretical issue where I live. We have 
massive pine beetle kills in the forests of the State of 
Washington and Alaska, by the thousands and thousands of acres 
caused by changing climate today. This is not a theoretical 
issue.
    Glacier National Park won't have any glaciers in it. It had 
135 when I was born and will have zero when I die--I hope--if I 
live for the next several decades, anyway. We will have to call 
it the Park Formerly Known as Glacier.
    The tundra is melting in Alaska. We are having to move 
cities. Shishmaref, Alaska, is having to be relocated because 
of the change in the shoreline.
    This is not some abstract thing. We are already--and it is, 
frankly, a little stunning to me for anybody to say 
CO<INF>2</INF> increases are positive when we are already 
seeing these negative attributes happening to my constituents 
today. This is not some abstract thing.
    But I want to ask about a specific one. Dr. Jane Lubchenco, 
who is an oceanographer from the Oregon State University, who 
now runs NOAA for us, she has testified that carbon dioxide, 
when we burn it, goes into the atmosphere, eventually ends up 
going into a solution in the oceans--and she didn't use this 
term--in what I will call an invisible oil spill. We have got a 
big visible one down in the Gulf, but it is an invisible one 
every time we burn oil, and that that CO<INF>2</INF> goes into 
the water, and it creates more acidic conditions in the water.
    And during previous testimony we have been told that the 
concentration of acidic ions has increased about 30 percent in 
pre-industrial times, at levels that have never experienced 
this during humans' time on Earth.
    So, first off, just a quick question. Does everybody on the 
panel agree that carbon dioxide, which has been caused by us 
burning fossil fuels, has dramatically increased the acidity of 
our world's oceans? If you can answer yes or no, if we can do 
this quickly. Thank you.
    Mr. Molina. Yes.
    Mr. Cicerone. Your numbers are correct, Representative 
Inslee.
    Mr. Santer. Yes.
    Mr. Schneider. Yes, it has increased.
    Mr. Happer. No, it has certainly not dramatically 
increased. It has changed----
    Mr. Inslee. Okay. Well--I am sorry----
    Mr. Happer [continuing]. From 8.2 to 8.1 or 8.0, 
something----
    Mr. Inslee. Right. Well, that is a logarithmic scale as we 
know on the acidic, but the numbers of ions, it translates to 
about a 30 percent increase.
    Could we have a chart? I want to say Dr. Happer suggested 
this is no big deal and nothing to worry about. Dr. Jane 
Lubchenco, who is our expert in the Nation on this--could we 
put a slide up on this?
    This is a slide that shows, according to Dr. Lubchenco, 
what happens to terrapods--terrapods are these small plankton 
that constitute about 40 percent of the bottom of the food 
chain--and she has shown us experiments about what happened 
when you put terrapods in water that is as acidic as it will be 
at the end of this century if concentrations of carbon dioxide 
continue unabated, and what they do is that they dissolve.
    You see on the left is a picture of the terrapod shell. It 
is made out of calcium carbonate that the little structure 
precipitates out of the water to form its body structure. It is 
a little shell. Now they put it in water that has the same 
acidity as the waters will have at the end of this century; and 
basically, over a period of 45 days, the shell essentially 
dissolves.
    Now, Dr. Lubchenco has told us--who runs the National 
Oceanographic and Atmospheric Administration, who is a 
scientist from Oregon State University. She has told us that 
this presents a clear and present danger to the food chain of 
the oceans. Because, of course, this is the bottom of the food 
chain, these little plankton that end up feeding the whales 
eventually and the salmon and everything else. Now, she 
considers that a significant threat.
    So if I can, if I could just ask the panelists, is it a 
realistic concern that the food chains of the oceans are in 
danger because of the changes in carbon dioxide which increase 
the acidity, not to mention the temperature--by the way, we 
have been told there will be no coral reefs during my 
grandson's lifetime because of the combination of acidity and 
temperature.
    But forget temperature for a minute. Just because of 
acidity, is it clear that there is a relationship between 
carbon dioxide and the acidity of the oceans that does present 
a threat to creatures that use calcium carbonate in the oceans?
    If we can start with Dr. Cicerone.
    Mr. Cicerone. Yes. I have gone to several conferences where 
this early work has been discussed, and it is difficult to see 
any way around it. The changes are large enough, the 
sensitivity is high enough, and unless there is some unexplored 
niche which is going to stabilize things, it looks that 
serious, yes.
    Mr. Molina. Yes, I totally think it is serious. Of course, 
if we have several million years to wait, hang around, maybe 
life would adapt okay. I mean, it wouldn't be a problem.
    Mr. Santer. Yes, I think it is a problem. And, again, the 
issue is the rapidity of these changes. While there have been 
changes in the past, as Dr. Happer showed, there is no analogue 
in the past for the current rapid changes that we are going 
through.
    Mr. Schneider. It is certainly clear that there will be 
quite a large number of species percentage-wise that will be 
threatened. Not all will be, and we have to be careful of 
anyone who cherry-picks only one kind of species either 
entirely threatened or not threatened, but, as an integral, the 
ecosystem is an interconnected hole. Knocking out substantial 
percentages of it is a very high risk.
    Mr. Happer. No, it is nonsense. Especially for the 
plankton, because they have a very high turnover rate. So they 
evolve extremely quickly because of the very short generation 
time. So they can easily adapt to anything we can do.
    Mr. Inslee. Maybe--if you will permit me one more question, 
Mr. Chair. Thank you. Or maybe even two.
    Dr. Happer's statement is absolutely stunning to me because 
I think it is totally contrary to any accepted belief by any 
evolutionary biologist in the world today. I don't know how to 
say it in a more cataclysmic statement.
    But I want to ask this to make sure we give you a chance to 
answer, Dr. Happer. You have basically said that we shouldn't 
worry about carbon dioxide because the only thing we really 
should worry about is if in fact it increases water vapor, if I 
understand your testimony, that that is where we really could 
have cataclysmic warming. But I want to make sure that my 
understanding is correct, and I will just go down through all 
the scientists here.
    The increasing acidity of the oceans that we are 
experiencing through clear, unambiguous results--I met the NOAA 
ship when it docked in Seattle where it found some of these 
results off the coast of Washington and Oregon last year. I 
just want to make sure I understand that there is no question 
that this acidity will increase with increasing concentrations 
of carbon dioxide with or without any changes in the water 
vapor. Is that the correct scientific conclusion?
    I will just go down the panel.
    Dr. Cicerone.
    Mr. Cicerone. Yes.
    Mr. Molina. Yes, of course.
    Mr. Santer. Yes.
    Mr. Schneider. Yes.
    Mr. Happer. Well, let me qualify that. Changes in the water 
vapor means that the sea surface temperature has changed and 
that changes the solubility of CO<INF>2</INF>. So there are 
slight correlations there, but the first approximation, that is 
correct.
    And let me correct one thing. I didn't say that the key is 
water vapor. I said water vapor and clouds. I was careful to 
add clouds.
    Mr. Inslee. Yes. I think I understand.
    Thank you, gentlemen.
    The Chairman. The gentleman's time has expired.
    The Chair recognizes the gentleman from Oregon, Mr. 
Blumenauer.
    Mr. Blumenauer. Thank you, Mr. Chairman. I appreciate your 
courtesy. I was at two other meetings.
    But I want to just see if I understand correctly, Dr. 
Happer, do you think the conclusion of many scientists, some of 
whom who are represented on this panel, whose research has 
tended to believe that climate change probably will have 
catastrophic impacts on the planet, do you think they are 
reaching this conclusion based on their interpretation of data 
to the best of their ability?
    Mr. Happer. Yes, I think they are.
    Mr. Blumenauer. And would you posit that of the many 
scientists that we have heard from in this committee before and 
the research that we have analyzed of those who believe that 
there are, in fact, serious impacts on the ecology and the 
economy of our planet and the impacts might actually be worse 
than we had anticipated while you think that changes will be 
small and may even be positive, would you agree that your 
position is, to be charitable, a minority position of the 
scientific community?
    Mr. Happer. Oh, yes, I certainly agree. And in many cases 
in the history of science the minority has been right.
    Mr. Blumenauer. But if you were a policymaker charged with 
making decisions based on what is a preponderance of evidence 
from people who in good faith are arriving at a starkly 
different and more serious conclusion where there is a 
catastrophic risk to the economy, the ecology, as opposed to 
taking remedial steps, many of which are things that experts 
are telling us we should do anyway--that we shouldn't continue 
to waste more energy than anybody on the planet, that we ought 
to be sensitive to the use of fossil fuels--wouldn't it be 
prudent for a policymaker to take action based on the 
overwhelming consensus of the scientific community to take 
steps that many think are important to do even if we weren't 
concerned about catastrophic climate change?
    Mr. Happer. I think you should take steps that are 
independent of climate change. For example, energy independence 
is a good idea. You know, efficiency is a good idea. All of 
those are good ideas. Preserving the environment is something I 
am in favor of. But you should be careful about being stampeded 
into something.
    It reminds me, I have often told my friends, of the 
prohibition frenzy, the temperance movement. So this is very 
similar to that. They were sincere people. They really thought 
it would help humanity.
    Mr. Blumenauer. I will conclude on this point just because 
it is intriguing to me. I agree with you about the stampede for 
prohibition, but that wasn't driven by an overwhelming 
consensus of the scientific community with decades now of 
empirical research. It was largely ideological, political, 
sociological, without a scientific foundation. Wouldn't you 
agree that there is a slight difference between the political 
knee-jerk reaction to prohibition and listening to thousands 
and thousands of scientists who are interpreting very clear 
scientific trends? Isn't there a difference here?
    Mr. Happer. Well, there is a little bit of difference. But, 
actually, you know, there are many scientists like me. I am not 
the only scientist. So there are many who feel the same as I 
do, and they are pretty good people.
    Mr. Blumenauer. Thank you, Doctor.
    Mr. Chairman, I appreciate your indulgence.
    And I agree that you are a good person, and I agree that 
there are a few others who articulate similar positions. We 
have heard from some of them, because the Chairman and the 
Ranking Member have worked to make sure that in the course of 3 
years we have had a broad cross-section of opinion.
    But because we are legislating for the country and we are 
part of a global effort that--where actually most people think 
we are legislating for the planet, it seems to me that there is 
slightly a different standard and that it isn't an experiment 
with prohibition. This is based on science. This is based on 
stakes that are much higher.
    And with all due respect to a few of the people, some of 
whom I have had a chance to meet and I find engaging and I 
think their evidence is worth listening to, but, for 
policymakers, it seems to me, Mr. Chairman, that it is not even 
close. And I do appreciate your indulgence here and what you 
have done to try to make sure that we look at the big picture.
    The Chairman. I thank the gentleman very much.
    I am going to recognize myself for a second round and other 
members as well, if they would like.
    Dr. Santer, I thank you for your earlier comments on 
harassment, and I am wondering if you would be willing to share 
with us about the form of the harassment which you have 
experienced and, if you would, how this has affected your 
ability to do your job as a researcher at one of our national 
laboratories.
    Mr. Santer. Thank you.
    This harassment, as I have indicated in my testimony, has 
really been ongoing since my role as convening lead author of 
the Detection and Attribution chapter of the IPCC's second 
assessment report back in 1996. Back then, I spent roughly 1\1/
2\ years of my scientific career defending that balance of 
evidence conclusion of the IPCC and defending myself. Since 
then, I have encountered sporadic e-mail harassment. People 
like hiding behind the anonymity of their keyboards and think 
that, if you come up with results that they don't like, they 
can write to you, they threaten you.
    Sometimes, this harassment has gone beyond e-mail threats. 
Several years ago, there was a knock on my door late at night, 
about 10 a.m.--10 p.m. I went downstairs to answer the door. 
There was no one there, but a dead rat had been left on my 
doorstep, and a gentleman in a yellow Hummer drove off at high 
speed, shouting curses at me.
    More recently, things have become a bit more serious in the 
aftermath of Climategate. The nature of these e-mail threats 
has been of more concern, and because of those concerns I have 
worried about the security and safety of my family. It is very 
troubling to me to think that, because of the job that I do and 
because of the findings I have obtained, my loved ones would be 
in harm's way. I don't know what to do about that.
    Another concern is the use or, in my opinion, abuse of the 
Freedom of Information Act. The Freedom of Information Act is 
noble in intent to enhance transparency in government. I 
believe, however, that in the climate science arena and in 
other scientific arenas the Freedom of Information Act has been 
used not as a tool for valid scientific discovery but as a 
means of taking up the time of government-funded scientists 
engaging in fishing expeditions.
    Many of the requests that I have seen in our community, 
some of the requests that I myself have received, have been 
frivolous. I don't know what to do about that, but the concern 
is that one or two individuals, if not constrained, could 
essentially use this kind of behavior to overwhelm us and 
prevent us from doing science in the public interest. That is a 
serious concern to me.
    The Chairman. Dr. Schneider, what have you experienced?
    Mr. Schneider. Well, there are flurries of very nasty e-
mails. For example, a typical one would be, you communistic 
dupe of the United Nations' attempt to create a global 
government to take away American religious and economic 
freedom. You are a traitor and should be hung.
    I mean, I get those fairly frequently. And, of course, you 
just ignore them. You never answer them.
    The part that is most intimidating isn't so much to me but 
my young students and others do know this, so we discuss it, 
and some of them are concerned. There has been, as Congressman 
Cleaver mentioned, a loss in civil dialogue, which is very 
unfortunate, where people come to your meetings and, instead of 
listening, they just shout, you know, how you are unAmerican. I 
haven't had too many of those, but I have had colleagues that 
have, and that is unfortunate. So there has been substantial 
amounts of intimidation of that type.
    I have had colleagues who have had letters written, myself 
included. Many of these e-mails are copied to my Deans and the 
President. Of course, it just leads us to have jokes about it, 
because they understand. But, by and large, this has never 
happened before. We have always had a spirited debate from the 
first--in the '70s when I testified to various bodies of this 
Congress on these issues. It was always civil. It was always 
bipartisan. And it has now gotten to the point where things 
have become accusatory and highly ideological, and that is very 
unfortunate.
    The Chairman. Dr. Cicerone, both Dr. Santer and Dr. 
Schneider have been listed in the Virginia Attorney General 
request to the University of Virginia and you have mentioned 
about the impact that this level of politicalization of science 
could have upon young scientists. Could you expand a little bit 
upon that?
    Mr. Cicerone. Yes. I do worry about the young scientists 
who I referred to earlier as a great asset we have in getting 
further the kinds of detailed information we need more and more 
in the future.
    I remember several years ago when there were instances in 
our Federal Government of certain scientists whose testimony to 
Congress and in their reports was being reviewed at higher 
levels in the agencies by communications office. My big concern 
then, and I communicated with Science Advisor Marburger at the 
time, was that this would be a big discouragement of some of 
our scientists going to work in our government laboratories; 
and that is something that--we have to encourage the young 
scientists to work in our government labs. So I worry about 
this kind of intimidation.
    In the case of Virginia, having been a university 
chancellor, I know that universities are pretty good at 
investigating all kinds of allegations. They can be sexual 
harassment. They can be racial bias. They can be political 
investigations. Universities know how to do them, and I think 
the University of Virginia is very capable of looking into 
these matters themselves without external threats and legal 
action, if there is any basis to them.
    The Chairman. Thank you, Dr. Cicerone.
    Dr. Molina, you won the Nobel Prize for your work in 
atmospheric chemistry of the ozone hole. Nobody disputes 
anymore that the ozone hole was caused by human activity and 
that the banning of ozone-depleting chemicals have helped to 
solve the problem. How do you compare the certainty of science 
related to the ozone hole to that of global warming?
    Mr. Molina. Yes. The science of ozone hole started perhaps 
as a minority opinion, but then, of course, the scientific 
community examined it very carefully and experiments were 
carried out and so the science became very sound. In the case 
of atmospheric ozone, we have very clear experiments that show 
that that is the case.
    In the case of climate change, I must say that there have 
been very impressive advances in recent years. But that several 
thoughts expressed here--we certainly acknowledge that there 
are uncertainties. That is why the research needs to be 
evaluated.
    So the climate system is very complex, but I believe the 
scientific community with honesty and so on has really 
concluded that the problem is indeed very serious and needs 
assessing it in terms of probabilities. So the science is 
perhaps--it certainly is not perfect. Perhaps it is not quite 
as clear as in the case of the ozone hole, where you have this 
enormous phenomenon that you could directly examine with 
measurements. But, nevertheless, we have very striking evidence 
of increased frequency of floods, of droughts, and so on. So to 
me that is--as we have heard, of course, that is what you need 
as a policymaker to make decisions.
    The Chairman. Dr. Molina, can you explain why you think 
there is so much manufactured controversy around the issue of 
global warming? What is special about this issue that draws so 
much controversy?
    Mr. Molina. I think there are a number of factors.
    There are certainly interest groups that feel they would 
lose--I am talking about perhaps business interests and so on. 
But there is also within the scientific community--perhaps 
there are some well-intended scientists that question the 
veracity, the authenticity of the science. But I think it is 
the fact that most of these questions have been examined in 
such a way that the news media has very much exaggerated the 
questions around it, the science itself.
    And just the fact that this is a new situation for human 
society, that it is very clear that human society can actually 
affect the function of the planets--it was already clear with 
the ozone layer, but it was not as pervasive. All of our 
activities connected with energy are affecting this situation.
    So I think it is just the science of the problem and the 
economic implications, which are also often not well 
understood, that explains the big difference.
    The Chairman. Thank you.
    The chair recognizes the gentleman from Missouri, Mr. 
Cleaver.
    Mr. Cleaver. Thank you, Mr. Chairman.
    Mr. Happer, let's go back to the garage. We both agree that 
carbon monoxide doesn't create joy, and so it will kill in a 
closed situation.
    Mr. Happer. Right.
    Mr. Cleaver. You have got to help me. We have got the 
troposphere right here, down here, and then there is the ozone 
layer and then the stratosphere. Am I scientifically sound?
    Mr. Happer. Yes. Yes.
    Mr. Cleaver. So do you agree that there are holes in the 
ozone layer?
    Mr. Happer. Yes. Over South America--over the South Pole in 
the spring, southern spring.
    Mr. Cleaver. And so--stay with me and help me. So then we 
are not getting the protection that we would normally get in 
our atmosphere because some of the sun's rays are coming in. 
They are not able to bounce back into the stratosphere; am I 
right?
    Mr. Happer. Well, I guess if we are talking about ozone, 
the concern there is the ultraviolet----
    Mr. Cleaver. Yes.
    Mr. Happer [continuing]. Which is absorbed by ozone. And 
there are a couple of things to remember. It is over the South 
Pole. Not many people live there. And, also, you know, in the 
spring, the sun is just barely over the horizon. So it is just 
going over a very large slant path. So, in fact, the effects on 
living things are not very big.
    Mr. Cleaver. But you are saying that because it is over the 
Pole--South Pole?
    Mr. Happer. South Pole.
    Mr. Cleaver. That essentially cancels out any negative 
impact?
    Mr. Happer. Well, the point is that the sun is not shining 
from overhead in the south polar spring. It is just barely 
beginning to come above the horizon. You know, it has been 
below the horizon. So it is during that period that the ozone 
hole develops.
    Mr. Cleaver. Okay. So, in the garage, if we had a way for 
the carbon monoxide, the tailpipe emissions, to bounce out of 
the house, the person in the car might survive.
    Mr. Happer. Yes, absolutely. Good ventilation, like this 
room has good ventilation. Without it, the CO<INF>2</INF> 
levels would be several thousand. You are right.
    Mr. Cleaver. Okay. Thank you.
    The Chairman. The gentleman from Missouri's time has 
expired.
    Mr. Cleaver. Yes. My time has expired not--hopefully, we 
will get rid of some of the CO<INF>2</INF>, and my time won't 
expire.
    But the point I am trying to make, because I may be 
misunderstanding, tailpipe emissions are not bad. They are not 
creating a negative problem.
    Mr. Happer. Yes, they create a negative problem because of 
the carbon monoxide, the CO, not the CO<INF>2</INF>. They have 
CO<INF>2</INF> also in water and all sorts of other junk, but 
the CO is the bad stuff.
    Mr. Cleaver. So the carbon monoxide is getting out in the 
atmosphere?
    Mr. Happer. Well, it gets into--lots of things put CO into 
the atmosphere, cars, as you mentioned, and it slowly gets 
oxidized because of the OH radicals and ozone, too, for that 
matter. But it doesn't last long.
    Mr. Cleaver. So it cancels it out.
    Mr. Happer. It is eaten up by oxidants in the atmosphere.
    Mr. Cleaver. So the burning of fossil fuel is neutral. It 
creates no problem because we have got something eating it up.
    Mr. Happer. Well, what gets eaten up is the carbon 
monoxide, which is very dangerous, very poisonous. And the 
CO<INF>2</INF> doesn't do anything because, as you and I 
breathe, we are exhaling CO<INF>2</INF>, which is much more 
concentrated than you get in the exhaust of a car, at least 
comparable to that. It is 40,000 parts per million. It is a lot 
of CO<INF>2</INF>. That is why the CO<INF>2</INF> in this meter 
is so high.
    Mr. Cleaver. I know, but the point I am trying to make is 
that tailpipe emissions are not doing any damage to the 
atmosphere.
    Mr. Happer. Well, if you are in the Los Angeles basin, for 
example, they create smog, usually not because of the CO but 
because you don't burn all the hydrocarbons, and then with 
complicated--you know, change in reaction, it makes this 
horrible haze that covers Los Angeles.
    Mr. Cleaver. So if it is in Los Angeles, people in 
Waxahachie, Texas, shouldn't be concerned.
    Mr. Happer. Well, I think they should be concerned. I have 
a daughter in Los Angeles, you know, and many people have 
relatives. You want them to have a healthy environment. So I am 
all for getting rid of smog, and you can do that by, you know, 
technical means.
    Mr. Cleaver. Dr. Molina.
    Mr. Molina. My opinion of this, of course, I think we are 
talking about air pollution, which is clearly something that 
should be controlled. Fortunately, new devices, catalytic 
converters and so on, remove a significant fraction of the 
carbon monoxide that gets in the air. But air pollution is just 
a good analogy. It is something we have the knowledge to 
eliminate, and so society wouldn't question now the need to use 
catalytic converters.
    We could not live in Los Angeles--the air in Los Angeles in 
the 1960s was just unbearable. So society had to invest to 
remove these pollutants. And even though that was questioned at 
that time by some sectors of society, some economic interests, 
nobody questions that now it is certainly a wise solution.
    There is another important connection because air 
pollutants turn out to not only have a large impact from the 
public health perspective, but they also affect climate. 
Besides CO<INF>2</INF>, tropospheric ozone and soot and so on 
are significant factors in the climate change issue. So we 
certainly need to take a very close look at all these 
activities of human society, many of them connected with 
burning fossil fuels, and they all point to a clear need to 
change the way society functions so that we preserve not just 
better human health in urban centers but a better functioning 
planet. That is very clear.
    Mr. Cleaver. Thank you.
    The Chairman. The gentleman's time has expired.
    The chair recognizes the gentleman from Washington State, 
Mr. Inslee.
    Mr. Inslee. Thank you.
    I have just taken a look at this demand letter from 
Attorney General Cuccinelli of Virginia demanding 
correspondence of dozens of scientists, including Dr. Santer 
and Dr. Schneider, and it is the most clearly abusive thing 
that I have seen for a long time, basically trying to treat 
scientists, Nobel Prize winners, like members of the Corleone 
family. And I am just offended at the use of--and I used to 
prosecute cases. I have to tell you I am offended at somebody 
politicizing a science in an obvious attempt to try to 
intimidate people who are trying to get at the truth, and I 
just have to say that.
    I want to read a letter that was published in Science 
Magazine May 7, and it is an open letter. It was signed by 
about 250 United States scientists. They are all members of the 
United States National Academy of Scientists. These are 
respected people.
    Here is what they said, and I want to see if members of the 
panel agree with what they said. This is just a paragraph out 
of the letter:
    We also call for an end to McCarthy-like threats of 
criminal prosecution against our colleagues based on innuendo 
and guilt by association, the harassment of scientists by 
politicians seeking distractions to avoid taking action and the 
outright lies being spread about them. Society has two choices: 
We can ignore the science and hide our heads in the sand and 
hope we are lucky or we can act in the public interest to 
reduce the threat of global climate change clear and 
substantively. The good news is that smart and effective 
actions are possible, but delay must not be an option.
    Can I just ask the panelists if you agree with that 
statement. Dr. Cicerone?
    Mr. Cicerone. I don't think I would have used the word 
``McCarthy-like'' tactics. I think it just escalates. 
Otherwise, I agree with it.
    Mr. Molina. I agree.
    Mr. Santer. I agree.
    Mr. Schneider. I signed it. I agree.
    Mr. Happer. Well, I agree with the first part. I am against 
harassment, and there has been too much of it for too long of 
science. But it didn't start with Virginia, you know. A lot of 
it started here on Capitol Hill. Many of us remember John 
Dingell's prosecution of David Baltimore, for example, which 
was every bit as bad as this. So I am certainly very much 
opposed to that, and I hope it can be stopped.
    You know, I think the statement is conflated with taking 
immediate action on CO<INF>2</INF>. I don't agree with that 
part.
    Mr. Inslee. So if Mr. Cuccinelli was here today, Dr. 
Happer, would you tell him to knock it off?
    Mr. Happer. Yes, definitely.
    Mr. Inslee. Well, I appreciate that statement.
    I wanted to talk again a little bit about ocean 
acidification. Dr. Happer has suggested that these are small 
changes in the acidity of the oceans, the relative acidity. 
Because, on the logarithmic scale, the changes are from about 
8.2 to 8.1 and maybe it will go down to 8.0 at the end of the 
century. He suggested those are small changes.
    Dr. Molina, could you give us a little chemistry lesson 
about why those--you may not think those are small changes?
    Mr. Molina. I think it is misleading to say small or big. 
We are talking about small changes in the concentration of 
CO<INF>2</INF> in the atmosphere or very large changes, 
depending on the context you are talking about. So from the 
perspective as explained by Jane Lubchenco, those are very 
worrisome changes. That is what I would state clearly.
    But you measure the effects on ecological systems and the 
effects are clearly noticeable and they would have a 
significant impact on the food chain. I would call those very 
worrisome changes. Whether small or large, that is just 
semantics, perhaps.
    Mr. Inslee. Thank you. And you have indicated worrisome 
enough to suggest we actually take action; is that right?
    Mr. Molina. Yes.
    Mr. Inslee. Thank you.
    Dr. Happer has suggested we need not worry about this 
problem because evolution will take care of it. As the oceans 
become more acidic, as the Arctic melts, as the tundra melts, 
as Greenland melts, as the pine beetles ravage the forests, as 
they have the forests of my State by the thousands of acres, 
that evolution will just solve these problems.
    Is there any anything in the literature to suggest that the 
polar bear can evolve fast enough to maintain its continuity 
with no Arctic ice to live on and hunt from? Is there any 
suggestion that the polar bear can sort of just evolve in the 
next two or three generations to be a land-based species and 
find out how to build hunting traps of its own or something? Is 
there any suggestion in the literature that that can happen in 
the next two or three or maybe ten generations of polar bears?
    Go ahead, Dr. Happer.
    Mr. Happer. Well, it is pretty clear during the neolithic 4 
or 5,000 years ago, the northern hemisphere was probably 3 
degrees warmer--2 or 3 degrees warmer than now. The polar bears 
did just fine.
    Mr. Inslee. And how about coral reefs? Is there any 
suggestion in the literature that coral reefs--Dr. Ken Caldeira 
of Stanford, who is a world-renowned oceanographer, was here 
some time ago and said that at the acidity levels that we will 
experience by the end of this century because the acidity 
levels are changing and increasing in the ocean, at those 
acidity levels it is doubtful that there will be any healthy 
coral reefs on the planet Earth, looking at the way coral 
responds to changes in acidity.
    Is there any suggestion that coral reefs within that period 
of time or some kind of--evolve a new way to precipitate 
calcium carbonate out of the ocean so that they can remain 
healthy? Is there any suggestion of that?
    Mr. Happer. Well, again, most of the coral reefs that we 
see, the fossil coral reefs, were at much more acidic 
conditions by the standards we are talking about now because 
they evolved with CO<INF>2</INF> levels that were thousands of 
parts per million.
    Mr. Inslee. Well, this is one place, Dr. Happer, that I am 
going to have to respectfully disagree. I understand you are a 
man of science, but you are not an oceanographer or a 
biologist, and the biographers and the oceanographers tell us 
that, in fact, those life forms have not existed in anything 
close to levels of acidity that exist in the world's oceans.
    Does anyone disagree with that statement other than Dr. 
Happer?
    Dr. Schneider, yes.
    Mr. Schneider. The biota that existed way back, you know, 
in the years of the dinosaurs and so forth when we had more 
CO<INF>2</INF> and warmer, were very, very different than now. 
They didn't also have to deal with all the other multiple 
stresses associated with humans like toxic runoff and warming 
oceans at high rates. It is the rates that really matter.
    And, therefore, you cannot use that analogy. Because even 
though nobody would argue that all life will disappear, in 
fact, warming will make some species better off, the problem is 
how do you maintain the vast diversity of life to which we have 
had a co-evolution of climate and life when you have very, very 
rapid disturbance? That is the worry. The worry is losing tens 
of percents of the existing species, not that there won't be 
some species that will do better. And losing tens of percent is 
a very significant threat to the ecosystem, particularly when 
it provides services such as food that we need.
    If we lose the coral reefs as we now know them, even though 
there will be some that will survive, then a major source of 
protein for poor people is lost, in addition to these little 
entries, as I think of them, as nature's books in the library 
of Alexandria, these existing species which have co-evolved 
over this time, and there is a fundamental ethical question 
whether we should risk losing them just so that one species 
gets so much richer a few years faster.
    Mr. Inslee. So if I can ask just--I was in Panama and met a 
scientist who was studying the effect of carbon dioxide on the 
rainforest, and he was up on one of these cranes that go around 
2 acres. It was actually the first one ever in use. And he said 
that they have found that the lianas, which are the vines, have 
increased their acreage, that they cover at the top of the 
forest by as much as 30 percent because the lianas can 
metabolize carbon dioxide much faster than the other structures 
in the forest that take a structure. They don't really have any 
structure. They just grow leaves. So they go nuts. So he 
basically said the lianas are taking over the forest canopy of 
the rain forest. So it is good for lianas but bad for the 
structural stuff that it can eventually choke out.
    Now, what he told me--and this has stuck with me. He said, 
you know, we are involved in the largest experiment in the 
history of the planet Earth and we are the guinea pigs and we 
don't know how this is going to turn out.
    I am just going to ask your comments, if the panelists 
agree with that assessment.
    Mr. Cicerone. I think that is a pretty fair assessment. 
Roger Revelle and other people said it 30 years ago, referring 
to this great geophysical experiment.
    For example, on the ability of some plant species to 
prosper, carbon dioxide is not the only limiting nutrient. They 
also have to have water. They have to have nitrogen, 
fertilizer, trace minerals. And indeed the paths to 
photosynthesis in some cases don't even depend directly on the 
amount of carbon dioxide, the different paths to 
photosynthesis.
    Mr. Cicerone. The different paths to photosynthesis of 
sorting all of this out is going to take a great deal of 
commitment, and the problem is the changes are happening faster 
so far than our ability to sort it all out. That is why people 
talk in these grandiose terms about conducting an experiment, 
that we don't know how it is going to turn out.
    Mr. Molina. I certainly agree as well. We are conducting 
that experiment, and we already see some evidence.
    But the thinking is, if the Earth warms only a little bit, 
clearly there might be beneficial effects and also effects that 
are not beneficial. But what seems to be a consensus--we see 
that from the frequency of droughts, floods, and so on--there 
seems to be a consensus that if we change the system 
significantly, because we are doing that very fast, and because 
of the fact that it is very vulnerable--that is another big 
change we have now with respect to 50 million years ago. We 
have 6 billion people on the planet, so society is very 
vulnerable now. It is very fast changes. We will certainly be 
limiting the feasibility for them to really have the economic 
well-being as they deserve.
    Mr. Santer. Yes, I believe we are performing a grand 
experiment, and there is no control, there is no parallel Earth 
without human intervention. That is a concern to me.
    As Dr. Happer correctly pointed out, things have been 
different in the geological history. There have been changes in 
carbon dioxide, other greenhouse gases, clearly changes in the 
fauna and biota. But the key thing here is that we are now a 
forcing of climate, and the changes that are happening now have 
no geological analogue. They are too rapid. We don't know how 
this experiment is going to turn out, but it is happening.
    Like you, I actually see evidence of this. I am a climber. 
I have spent a lot of my life, the last 35 years, in high 
alpine environments around the world. I have seen these changes 
in glacials. I have seen these changes in fragile high-alpine 
environments. They are real, they are happening now, and future 
generations will be experiencing these places in a quite 
different way from the way that you and I experience them. That 
is a cause for serious concern for me at least.
    Mr. Schneider. Congressman Inslee, let me rephrase your 
correct insight that these things operate as a system. 
Remember, it is called an ecosystem because it is a system. If 
you take any individual plant and you put it in a chamber and 
you give it more CO<INF>2</INF>, it generally likes that. When 
you go out in a system, as Ralph Cicerone said, with multiple 
nutrient variations, some plants are given competitive 
advantage over others. You can actually decrease some plants by 
crowding them out. So you are making a very rapid change to a 
system. And what that does to the structure and, most 
importantly, for us, the functioning of that system, is a great 
deal of uncertainty.
    But this experiment that we are performing--and I would 
obviously have to agree with your question, because my 1997 
book had the title, Laboratory Earth: The Planetary Experiment 
We Can't Afford to Lose, so clearly I agree with the metaphor. 
However, we are not entirely ignorant. And, remember, as I said 
earlier in my testimony and as the IPPC frames and National 
Academy studies, we can sort out components of this that are 
well-established, so we really are not ignorant at all. And if 
we didn't have many of them, you would not find the large 
numbers of climate scientists expressing concern as we are now. 
Then there are components with competing explanations where we 
worry about the coin flip odds, but there are still going to be 
speculative parts.
    So we do not know the full outcome of this experiment, but 
we are absolutely certain that we are going to confer advantage 
to some species at the expense of others, which will cause 
extinction. And we are absolutely certain that most people 
don't think that that is a good idea.
    Mr. Happer. Well, the climate has changed all the time over 
all of geological history on every time scale, from decade to 
decade, to century to century, millennium to millennium. So 
just during the past 10,000 years there have been many periods 
when it has been much warmer than now. In fact, there were 
periods when there were no glaciers in the West. So things like 
Glacier National Park are not an old feature. They are a fairly 
new feature, even during the last 10,000 years.
    Mr. Inslee. Thank you, Mr. Chairman.
    The Chairman. The gentlemen's time has expired.
    I am going to ask Dr. Cicerone a question; and then, after 
I finish with that, we are going to come back in reverse order 
and ask each of you to give us a 1-minute summation of what it 
is, a 1-minute, minute-and-a-half summation of what it is that 
you want this committee and the Congress to know as we move 
forward, taking into account the fact that Senator Murkowski 
may actually bring a resolution to the Senate floor within the 
next several days to overturn the endangerment finding made by 
the EPA on the question of the impact of CO<INF>2</INF> and 
greenhouse gases on our planet.
    So this interaction of science and politics is very clear, 
and it is something that could be debated on the Senate floor 
almost immediately after the conclusion of their debate on the 
financial regulation overhaul bill, which they are now 
considering.
    Dr. Cicerone, you mentioned that the National Academy of 
Sciences issued three reports yesterday. Can you briefly 
outline the recommendations of the reports on policies needed 
to reduce carbon dioxide and to adapt to climate change 
impacts?
    Mr. Cicerone. Yes. The report that was released yesterday 
was requested by the previous Congress more than 2 years ago. 
And, as I said, we divided up--the request was basically, if I 
can paraphrase, to issue a report stating what we know about 
climate change, how real is it, what are the causes, what to 
expect, and then what should the country do about it. I am 
paraphrasing.
    The Panel on the Science of Climate Change has received 
most of our attention this morning, what we have already known, 
how we know it, how we can improve our knowledge. The experts 
who wrote that report and our reviewers agreed that it is 
important to continue the physical science side of climate 
research, of course. We need a lot better information.
    They think it is also important to tune some of our future 
research towards the needs of, for example, how do we limit the 
amount of climate change to happen in the future and how we 
adapt to the changes which cannot be managed. So the second and 
third part--and they said that the evidence for climate change 
is very credible and strong, and it has grown over the last 4 
or 5 years as well.
    The limiting part of the report focused on the need for, 
instead of doing something for 1 year, to come up with a 
longer-range strategy that could be sustained and improved with 
time. So they focused on, for example, carbon dioxide emissions 
over a period of the next 40 years and said that there is a 
need for a national target of what should be the cumulative 
emissions over the 40-year period and then come up with 
strategies to deal with it, starting with the easiest things 
like energy efficiency and the low-hanging fruit, all the way 
through to further out basic research to identify completely 
new technologies. Because they concluded, without any 
reasonable target for total emissions between now and the next 
40 years, we don't have the technologies in place on the shelf 
to meet the energy needs of the growing world population.
    The third part of the report was adaptation; and the goal 
there was, given that there will be some changes which cannot 
be limited, cannot be avoided, how should we adapt? And rather 
than trying to come up with a detailed strategy for every 
locality in the country, because the local needs and the 
regional changes are different, they emphasized the need for a 
national strategy which would play out locally, how to 
encourage and coordinate adaptation mechanisms which must be 
placed locally, the needs of the Gulf Coast being different 
from the Pacific Northwest and New York City, for example.
    So, in essence, the report takes the problem seriously. It 
says, as Dr. Molina said a minute ago, that the future size of 
the problem looks unmanageable unless we commit now to a 
sustained strategy of limitation and adaptation.
    The Chairman. Thank you, Dr. Cicerone, very much.
    Now we will ask each of the witnesses to give us their 
summation statement to the committee, and I would ask you to 
limit it to 1 minute or so. And we will begin with you, Dr. 
Happer.
    Mr. Happer. Well, my advice to policymakers here in 
Congress is that you take a deep breath and think a little bit 
more about the scientific evidence and remember the oath that 
you doctors used to have to take. It is, first do no harm. And 
in the case--I mentioned the similarity of this excitement to 
prohibition. And then, too, as I said, everybody was for it, 
and they were for sincere reasons. I can understand that. But 
it was the wrong thing to do. So it was the only amendment that 
has ever been repealed. So I hope you will remember that and be 
careful what you do.
    The Chairman. Thank you.
    Dr. Schneider.
    Mr. Schneider. Yes. Just a few hanging points I will try to 
do quickly.
    One is, we have been talking about this issue of 
skepticism, and some have done denial. I just want to very 
quickly put in perspective, there is no such thing as a good 
scientist who is not a skeptic. I began my career thinking that 
dust and cooling was more likely than warming, found out what 
was wrong with it, and I am very proud to have published first 
what was wrong with my own ideas. We evolve our ideas on the 
basis of evidence.
    A denier is someone who does not admit the preponderance of 
evidence based upon the overwhelming amount that is out there. 
That is exactly what IPCC and National Academy of Sciences 
does, is it convenes teams to assess preponderance. Because 
individuals are not very good at assessing risk by itself as to 
what can happen, what are the odd parts? Our job in society is 
risk management, how to deal with it.
    Number two is, I am disappointed that Congresswoman 
Blackburn left, because she made a statement that I hear all 
the time when I get these angry e-mails: Oh, you are just in it 
for the money. So what really is frustrating to those of us who 
do this is that if our strategy were to get money then the last 
thing we are going to say is that it is unequivocal that there 
is warming and very likely that humans are responsible most of 
the last 50 years. Because then you don't need us. Then you are 
now making risk management judgments. What we are saying is we 
don't know anything; fund us to do it. So not only are we being 
accused of dishonesty, but we are also being accused of being 
pretty dumb.
    So what we do is separate out the relative components we 
know well from the others, and it is not at all about getting 
grants. That is just simply a political statement I would love 
to discuss with the congresswoman.
    Also, Congressman Sensenbrenner made the comment that 
climate scientists are very frustrated and had inappropriate 
attempts to control things. Well, yes, they were very 
frustrated. They are a tiny minority of scientists, and their 
frustrations were never acted on by the IPCC.
    But for those people who claim it is only climate 
scientists who express human emotions and frustration, why 
don't they just simply release the so-called ``climate 
skeptics,'' all their interchanges of their own e-mails over 
the last 10 years and let the public decide which of them have 
been more strategic in their plans. And until they do that, 
their accusations have no merit whatever.
    And, finally, I wanted to come out and say, from the 
committee's perspective, in the conversation that Congressman 
Cleaver was talking about about air pollution--and everybody 
agreed that getting the pollutants which are health threatening 
out of cities is a good idea--well, some of those pollutants 
are generated by inefficient processes. So let's look for co-
benefits and win-wins.
    And, obviously, in the legislation that you have been 
involved in, you are trying to find those elements where 
solving one problem also helped to reduce CO<INF>2</INF> 
emissions so that you can solve both at once at relatively 
lower costs. It is a very, very good operating principle.
    And the final thing is, the question of civil dialogue. For 
a very, very long time there was an unwritten social contract 
between science and society, especially the Congress, where 
again our job was risk: What can happen and what are the odds? 
And your job is what to do about it. And this water gets 
muddied by the people who don't see preponderance, by the 
statements of attributing to people that they are doing it for 
money or other kinds of things. So then what happens is it 
becomes a political story, and the risk part and the risk 
management part get lost in the middle. The public is confused; 
and, unfortunately, that is the state that we are in now. And I 
appreciate the opportunity to try to see if we can get that 
restoration of civility and the separation of function between 
the science job of risk and the public policy job of risk 
management.
    Thank you, sir.
    The Chairman. Thank you, Dr. Schneider.
    Dr. Santer.
    Mr. Santer. I would like to follow up on that briefly.
    Like Steve, I believe that we are impelled by curiosity. 
Scientists want to figure out the way the world works. They 
want to get the science right. That is why I chose to be a 
scientist, not because I had any hidden agenda there. And the 
work that I do, fingerprinting, has been fascinating to me. It 
is like a big detective story. Who done it? Was it the sun? Was 
it volcanos, natural climate variability?
    The powerful thing in that work is that you are looking not 
at just one global mean number, the average temperature of the 
planet. You are looking at very detailed geographical patterns 
of change, altitudinal patterns of exchange. You are looking at 
different variables, as I have said, not just the surface 
temperature but variables related to the ocean, to atmospheric 
moisture, to atmospheric circulation, to rainfall. And the 
bottom line from all of that work is the climate system is 
telling us an internally and physically consistent story, and 
the message in that story is natural causes alone cannot--
repeat, cannot--explain the absurd changes we have seen.
    You have a very difficult job. You have to figure out what 
to do about it. I believe that it is important for you to do 
that job based on the best available scientific information.
    Again, some of the developments we have seen over the last 
6 months in particular are worrisome to me. I think there are 
powerful forces of unreason, as I have called them out there, 
forces that would like to mandate the scientific equivalent of 
``no go'' areas. You do research in that area and come up with 
findings we don't like, we will come down on you like a ton of 
bricks.
    I do not think that that is in the best interests of the 
American public. I think that in order to take smart decisions 
on what to do about climate change we need an informed, 
scientifically savvy electorate, and I hope that you will allow 
us to let that happen.
    The Chairman. Thank you, Dr. Santer.
    Dr. Molina.
    Mr. Molina. Just to summarize what I said in my testimony 
before, namely, that the science is very clear, namely, that 
the science of climate change, that there is a significant 
probability that if human activities continue unchanged that we 
will seriously impact the climate with potentially very 
negative consequences. And that is the type of information that 
allows decisionmakers to evaluate the risk.
    I must add that there is another important component: What 
does it take to address this change? And that is for economic 
studies. And so there, again, it is clear that we are not 
talking about huge sacrifices. We are not talking about even, 
for developing countries, threatening economies so that 
everybody achieves that higher standard of living. If we do it 
cleverly, it is quite clear from this perspective that the risk 
of having serious damage to society is serious and the 
probability is much larger that we will suffer if the necessary 
actions to confront climate change are not taken by 
decisionmakers like yourself. So I think the case is quite 
clear from this perspective.
    And, lastly, I just want to mention in the context of our 
testimonies here I certainly agree that we have to respect 
minority perspectives, and minority opinions in science have 
had important roles. But, in this case, why I challenged these 
minority opinions is I haven't seen reports or documents or 
articles in the literature recently that seriously question 
these challenges. Of course, I am not talking about the 
existence of uncertainties, but I think the incentive is 
precisely the other way around, and it is often said that you 
cannot get these articles published because of the peer-
reviewed system. No, if you actually can document and make a 
strong case, clear, scientific and so on, that will be very 
valued by society. You will became famous. It is far from 
happening. There are practically no--I am sorry to say, but I 
haven't seen in recent years anything serious in the literature 
questioning these basic conclusions that we are reaching.
    The Chairman. Thank you, Doctor Molina.
    And Dr. Cicerone.
    Mr. Cicerone. Yes, thank you.
    First, I would like to say that the United States science 
effort on climate change is really admired around the world. We 
have been leaders, and we really would like to stay that way, 
partly because to be able to recognize claims that are made 
elsewhere in the world and to evaluate what the rest of the 
world is increasingly coming up with we have to be in a 
leadership position, and that is going to take a sustained 
commitment.
    In my contacts with the business community, which are 
frequent, I think a lot of business leaders are willing to work 
with you and eager to work with you to create a sustained 
commitment not only to the scientific research but also to an 
effort to limit the size of these climate changes and to get on 
with preparing adaptation mechanisms for the ones that do 
occur, to take preemptive action and effective action. And I 
think the world markets that will develop for more energy 
efficient products, for example, and ways to deal with these 
issues are substantially positive, and the United States can 
and should be in a leadership position, but it is going to 
require a sustained commitment.
    The Chairman. Thank you, Dr. Cicerone, very much.
    We thank each of you for your testimony here today. It is 
especially relevant in a period of time that could be 
immediately preceding Senator Murkowski's resolution coming out 
onto the Senate floor, which would reject the EPA's finding 
that CO<INF>2</INF> is a danger to the planet. That kind of 
debate, in my opinion, is the same kind of debate that occurred 
during the Scopes trial in the 1920s over the issue of 
evolution. It is the same kind of denial that was based upon 
religion, and here it would be the religion of fossil fuels as 
opposed to the actual science of the time.
    I think in the 1920s religion, unfortunately, was still 
given too much credence when it came to the questions of 
science. It was given too much credence in terms of 
prohibition. And, in both instances, history looks back and 
wonders why so much weight was given to religion and its impact 
on public policy, both on prohibition and on the question of 
evolution. Well, we are about to have that debate again in the 
United States Congress, as unbelievable as it may seem, given 
the scientific consensus that human activities are leading to a 
dangerous warming of our planet.
    Your ability to be able to bring science to Congress 
ultimately is going to be essential to our ability to put the 
policies in place that will make it possible for us to avoid 
the most dangerous consequences of global warming. The planet 
is running a fever. There are no emergency rooms for planets. 
So, as a result, we have to engage in preventative care. And 
that will mean relying upon the science that will give us the 
impetus to put the policies in place that will reduce the 
chance that we will in fact inflict those dangerous global 
warming consequences on the planet.
    We thank each of you for being here. This hearing is 
adjourned. Thank you.
    [Whereupon, at 11:30 a.m., the committee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 58145A.066
    
    [GRAPHIC] [TIFF OMITTED] 58145A.067
    
    [GRAPHIC] [TIFF OMITTED] 58145A.068
    
    [GRAPHIC] [TIFF OMITTED] 58145A.069
    
    [GRAPHIC] [TIFF OMITTED] 58145A.070
    
    [GRAPHIC] [TIFF OMITTED] 58145A.071
    
    [GRAPHIC] [TIFF OMITTED] 58145A.072
    
    [GRAPHIC] [TIFF OMITTED] 58145A.073
    
    [GRAPHIC] [TIFF OMITTED] 58145A.074
    
    [GRAPHIC] [TIFF OMITTED] 58145A.075
    
    [GRAPHIC] [TIFF OMITTED] 58145A.076
    
    [GRAPHIC] [TIFF OMITTED] 58145A.077
    
    [GRAPHIC] [TIFF OMITTED] 58145A.078
    
    [GRAPHIC] [TIFF OMITTED] 58145A.079
    
    [GRAPHIC] [TIFF OMITTED] 58145A.080
    
    [GRAPHIC] [TIFF OMITTED] 58145A.081
    
    [GRAPHIC] [TIFF OMITTED] 58145A.082
    
    [GRAPHIC] [TIFF OMITTED] 58145A.083
    
    [GRAPHIC] [TIFF OMITTED] 58145A.084
    
    [GRAPHIC] [TIFF OMITTED] 58145A.085
    
    [GRAPHIC] [TIFF OMITTED] 58145A.086
    
    [GRAPHIC] [TIFF OMITTED] 58145A.087
    
    [GRAPHIC] [TIFF OMITTED] 58145A.088
    
    [GRAPHIC] [TIFF OMITTED] 58145A.089
    
    [GRAPHIC] [TIFF OMITTED] 58145A.090
    
    [GRAPHIC] [TIFF OMITTED] 58145A.091
    
    [GRAPHIC] [TIFF OMITTED] 58145A.092
    
    [GRAPHIC] [TIFF OMITTED] 58145A.093
    
    [GRAPHIC] [TIFF OMITTED] 58145A.094
    
    [GRAPHIC] [TIFF OMITTED] 58145A.095
    
    [GRAPHIC] [TIFF OMITTED] 58145A.096
    
    [GRAPHIC] [TIFF OMITTED] 58145A.097
    
    [GRAPHIC] [TIFF OMITTED] 58145A.098
    
    [GRAPHIC] [TIFF OMITTED] 58145A.099
    
    [GRAPHIC] [TIFF OMITTED] 58145A.100
    
    [GRAPHIC] [TIFF OMITTED] 58145A.101
    
    [GRAPHIC] [TIFF OMITTED] 58145A.102
    
    [GRAPHIC] [TIFF OMITTED] 58145A.103
    
    [GRAPHIC] [TIFF OMITTED] 58145A.104
    
    [GRAPHIC] [TIFF OMITTED] 58145A.105
    
    [GRAPHIC] [TIFF OMITTED] 58145A.106
    
    [GRAPHIC] [TIFF OMITTED] 58145A.107
    
    [GRAPHIC] [TIFF OMITTED] 58145A.108
    
    [GRAPHIC] [TIFF OMITTED] 58145A.109
    
    [GRAPHIC] [TIFF OMITTED] 58145A.110
    
    [GRAPHIC] [TIFF OMITTED] 58145A.111
    
    [GRAPHIC] [TIFF OMITTED] 58145A.112
    
    [GRAPHIC] [TIFF OMITTED] 58145A.113
    
    [GRAPHIC] [TIFF OMITTED] 58145A.114
    
    [GRAPHIC] [TIFF OMITTED] 58145A.115
    
    [GRAPHIC] [TIFF OMITTED] 58145A.116
    
    [GRAPHIC] [TIFF OMITTED] 58145A.117
    
    [GRAPHIC] [TIFF OMITTED] 58145A.118
    

</pre></body></html>
